No. _______
IN THE

Supreme Court of the United States
_________
JONATHAN S. METCALF,
Petitioner,
v.
MICHAEL FITZGERALD, ET AL.,
Respondents.
________
On Petition for a Writ of Certiorari
to the Connecticut Supreme Court
________
PETITION FOR A WRIT OF CERTIORARI
________
BRUCE L. ELSTEIN
GOLDMAN, GRUDER &
WOODS, LLC
105 Technology Drive
Trumbull, CT 06611

ADAM G. UNIKOWSKY
Counsel of Record
JENNER & BLOCK LLP
1099 New York Ave., NW,
Suite 900
Washington, DC 20001
(202) 639-6000
aunikowsky@jenner.com

i
QUESTION PRESENTED
Does the Bankruptcy Code preempt state-law
vexatious-litigation claims arising from adversary
actions in bankruptcy proceedings?

ii
PARTIES TO THE PROCEEDING
Petitioner is Jonathan S. Metcalf.
Respondents are Michael Fitzgerald, Ion Bank,
Myles H. Alderman, Jr., and Alderman & Alderman,
LLC.

iii
STATEMENT OF RELATED CASES
Connecticut Supreme Court:
Metcalf v. Fitzgerald, No. SC 20227 (Sept. 3, 2019)
(decision below)
Connecticut Appellate Court:
Metcalf v. Fitzgerald, No. AC 41343 (Dec. 18, 2018)
(order transferring case to Connecticut Supreme
Court)
Connecticut Superior Court:
Metcalf v. Fitzgerald, No. UWYC176036631S (Jan. 22,
2018) (order granting motion to dismiss)
United States Bankruptcy Court for the District of
Connecticut:
In re: Jonathan S. Metcalf, No. 12-31919 (May 2, 2016)
(order of discharge)
Ion Bank v. Metcalf (In re: Jonathan S. Metcalf), No.
13-03006 (May 2, 2016) (order dismissing adversary
proceeding)
In re: The Metcalf Paving Co., Inc., No. 09-32996 (May
1, 2018) (final account and distribution report)
Chorches v. Metcalf (In re: The Metcalf Paving Co.,
Inc.), No. 12-03015 (June 15, 2015) (order dismissing
adversary proceeding)

iv
TABLE OF CONTENTS
QUESTION PRESENTED .............................................. i
PARTIES TO THE PROCEEDING ............................. ii
STATEMENT OF RELATED CASES ....................... iii
TABLE OF AUTHORITIES ......................................... vi
PETITION FOR WRIT OF CERTIORARI ................ 1
OPINIONS BELOW ......................................................... 1
JURISDICTION ................................................................ 1
STATUTORY PROVISIONS INVOLVED ................. 1
INTRODUCTION ............................................................. 2
STATEMENT OF THE CASE ....................................... 3
I.

Bankruptcy Proceedings ....................................... 3

II.

State Court Proceedings ....................................... 4

REASONS FOR GRANTING THE WRIT ................ 10
I.

THERE
IS
A
CONFLICT
OF
AUTHORITY ON THE QUESTION
PRESENTED. ..................................................... 10

II.

THE COURT SHOULD RESOLVE
THE CONFLICT OF AUTHORITY IN
THIS CASE. ......................................................... 14

v
III.

THE
CONNECTICUT
SUPREME
COURT’S DECISION IS WRONG. ................. 16

CONCLUSION ................................................................ 20
Appendix A
Metcalf v. Fitzgerald, 333 Conn. 1 (2019) ................ 1a
Appendix B
Metcalf
v.
Fitzgerald,
Docket
No.
UWYC176036631S, ORDER 434448 (Conn.
Super. Ct. Jan. 22, 2018) .......................................... 35a
Appendix C
Complaint, Metcalf v. Fitzgerald, Docket No.
UWY-CV17-6036631-S (Conn. Super. Ct.
Oct. 10, 2017) ............................................................. 37a

vi
TABLE OF AUTHORITIES
CASES
Graber v. Fuqua, 279 S.W.3d 608 (Tex.
2009) .................................................... 9, 12, 13, 16, 17
In re Leslie, 520 F.2d 761 (9th Cir. 1975) .................. 19
Lewis v. Chelsea G.C.A. Realty Partnership,
L.P., 862 A.2d 368 (Conn. App. Ct. 2004) .............. 6
MSR Exploration, Ltd. v. Meridian Oil, Inc.,
74 F.3d 910 (9th Cir. 1996) ........................... 7, 10, 11
Paradise Hotel Corp. v. Bank of Nova Scotia,
842 F.2d 47 (3d Cir. 1988) ...................................... 14
PNH, Inc. v. Alfa Laval Flow, Inc., 958
N.E.2d 120 (Ohio 2011)..................................... 11, 12
Professional Real Estate Investors, Inc. v.
Columbia Pictures Industries, Inc., 508
U.S. 49 (1993) ..................................................... 2, 4, 5
Simms v. Seaman, 69 A.3d 880 (Conn. 2013) ......... 4, 5
Stone Crushed Partnership v. Kassap
Archbold Jackson & O’Brien, 908 A.2d 875
(Pa. 2006) .................................................................. 12
In re Thorpe Insulation Co., 677 F.3d 869 (9th
Cir. 2012) .................................................................. 19
United States Express Lines, Ltd. v. Higgins,
281 F.3d 383 (3d Cir. 2002) .............................. 13, 14
STATUTES
11 U.S.C. § 105 .......................................................... 7, 16

vii
11 U.S.C. § 105(a) ............................................................ 1
28 U.S.C. § 1257(a) .......................................................... 1
Conn. Gen. Stat. § 52-568 ............................................... 5
OTHER AUTHORITIES
8 American Law of Torts § 28:21, Westlaw
(database updated Mar. 2019) ................................. 2
Fed. R. Bankr. P. 9011(b) ........................................ 7, 16
Fed. R. Bankr. P. 9011(b)(1).......................................... 1
Restatement (Second) of Torts § 653, Westlaw
(database updated June 2019) ................................. 5
Restatement (Second) of Torts § 674, Westlaw
(database updated June 2019) ............................. 2, 5

1
PETITION FOR WRIT OF CERTIORARI
Jonathan S. Metcalf petitions for a writ of certiorari
to review the judgment of the Connecticut Supreme
Court.
OPINIONS BELOW
The decision of the Connecticut Supreme Court
(Pet. App. 1a-34a) is reported at 333 Conn. 1. The
decision of the Connecticut Superior Court (Pet. App.
35a-36a) is unreported.
JURISDICTION
The judgment of the Connecticut Supreme Court
was entered on September 3, 2019. This Court has
jurisdiction pursuant to 28 U.S.C. § 1257(a).
STATUTORY PROVISIONS INVOLVED
11 U.S.C. § 105(a) provides:
The court may issue any order, process, or
judgment that is necessary or appropriate to
carry out the provisions of this title. No
provision of this title providing for the raising of
an issue by a party in interest shall be construed
to preclude the court from, sua sponte, taking
any action or making any determination
necessary or appropriate to enforce or
implement court orders or rules, or to prevent
an abuse of process.
Federal Rule of Bankruptcy Procedure 9011(b)(1)
provides:
(b) Representations to the Court. By presenting to
the court (whether by signing, filing, submitting, or

2
later advocating) a petition, pleading, written motion,
or other paper, an attorney or unrepresented party is
certifying that to the best of the person’s knowledge,
information, and belief, formed after an inquiry
reasonable under the circumstances,—
(1) it is not being presented for any improper
purpose, such as to harass or to cause unnecessary
delay or needless increase in the cost of litigation[.]
INTRODUCTION
At common law, a person who was the victim of the
wrongful initiation of civil proceedings had a remedy in
tort. See Restatement (Second) of Torts § 674, Westlaw
(database updated June 2019). This tort “require[d] the
plaintiff to prove that the defendant lacked probable
cause to institute an unsuccessful civil lawsuit and that
the defendant pressed the action for an improper,
malicious purpose.” Prof’l Real Estate Inv’rs, Inc. v.
Columbia Pictures Indus., Inc., 508 U.S. 49, 62-63
(1993). Most states recognize this tort today. See 8
American Law of Torts § 28:21, at n.23, Westlaw
(database updated Mar. 2019) (collecting cases).
This case presents the question whether the
Bankruptcy Code preempts this tort as applied to
adversary actions in bankruptcy proceedings. The
Connecticut Supreme Court answered that question in
the affirmative, joining the Ninth Circuit, Ohio
Supreme Court, and Pennsylvania Supreme Court. As
the Connecticut Supreme Court acknowledged, its
decision conflicts with decisions of the Texas Supreme
Court and the Third Circuit. The Court should grant

3
certiorari to resolve this split of authority on a
recurring and important question of bankruptcy law.
STATEMENT OF THE CASE
I.

Bankruptcy Proceedings

In 2009, Metcalf Paving Company, a business owned
by Petitioner Jonathan S. Metcalf, filed a bankruptcy
petition in the District of Connecticut. Pet. App. 2a.
Petitioner subsequently filed individually for
bankruptcy. Id.
On January 31, 2013, Respondent Ion Bank
commenced an adversary proceeding in Petitioner’s
individual bankruptcy case. Pet. App. 2a, 40a. Ion
Bank alleged that Petitioner had committed misconduct
in connection with those bankruptcy proceedings that
warranted a denial of discharge. Id. Ion Bank
continued to pursue this litigation for over three years,
filing three different complaints alleging an array of
fraudulent and obstructive acts. Id. 39a-46a. For
instance, Ion Bank alleged that Petitioner failed to
deliver several vehicles to the trustee; failed to disclose
the existence of a website used for a new business
Petitioner had started; and improperly withheld and
destroyed financial information. Id. 42a-45a.
On February 5, 2016, Petitioner filed a motion for
summary judgment in the bankruptcy court, providing
factual evidence contradicting all of Ion Bank’s
allegations. Pet. App. 2a-3a, 46a. For instance,
Petitioner submitted factual proof that the vehicles at
issue had been repossessed and had GPS installed on
them that allowed their whereabouts to be monitored;
that Petitioner had explicitly disclosed the website at

4
issue to the trustee; and that Petitioner had, in fact,
disclosed all relevant financial information to the
trustee and to an accountant retained by the trustee.
Id. 46a-47a. In fact, Ion Bank had actually filed an
objection to the accountant’s retention wherein it
admitted knowledge of the existence of significant
financial documents provided by Petitioner to the
trustee. Id. 47a. Petitioner also alleged that the
adversary proceeding was time-barred. Id.
Ion Bank did not even attempt to contest
Petitioner’s summary judgment motion. Rather, over
three years after it initially filed its adversary
proceeding, Ion Bank moved to dismiss its own
proceeding. Pet. App. 3a, 48a. The bankruptcy court
granted that request. Id. 3a, 48a.
II.

State Court Proceedings

Legal background. As noted above, the commonlaw tort of wrongful initiation of civil proceedings
“require[s] the plaintiff to prove that the defendant
lacked probable cause to institute an unsuccessful civil
lawsuit and that the defendant pressed the action for an
improper, malicious purpose.” Prof’l Real Estate
Inv’rs, 508 U.S. at 62-63. Connecticut’s version of this
tort is known as “vexatious litigation,”1 and follows the
1

A note about terminology: Some states refer to this
tort as “malicious prosecution.” Connecticut does not use
that phrase because it reserves that phrase for the malicious
pursuit of criminal (as opposed to civil) proceedings. See
Simms v. Seaman, 69 A.3d 880, 891 (Conn. 2013) (“A
vexatious litigation suit is a type of malicious prosecution

5
common-law rule: the plaintiff must prove “want of
probable cause, malice and a termination of suit in the
plaintiff’s favor.” See Simms v. Seaman, 69 A.3d 880,
891 (Conn. 2013) (citation omitted). Connecticut has
also codified a statutory vexatious-litigation tort. See
Conn. Gen. Stat. § 52-568; Pet. App. 19a.
Factual background. After Petitioner’s debts
were discharged by the bankruptcy court, Petitioner
commenced the litigation at issue here. Petitioner
brought common-law and statutory claims for
vexatious litigation under Connecticut law against Ion
Bank, Michael Fitzgerald (an Ion Bank official), Myles
action, differing principally in that it is based upon a prior
civil action, whereas a malicious prosecution suit ordinarily
implies a prior criminal complaint”) (quotation marks and
brackets omitted). Connecticut’s practice of limiting the
phrase “malicious prosecution” to the criminal context
tracks the common law. See Prof’l Real Estate Inv’rs, 508
U.S. at 62-63 n.7 (noting that the “common-law tort of
wrongful civil proceedings” is “frequently called ‘malicious
prosecution,’ which (strictly speaking) governs the malicious
pursuit of criminal proceedings without probable cause.”).
The Restatement makes the same distinction. Compare
Restatement (Second) of Torts § 653 (reserving the phrase
“malicious prosecution” to the criminal context), with id. §
674 (defining distinct tort of “wrongful civil proceedings”).
Consistent with Connecticut’s practice, this petition will
generally use the phrase “vexatious litigation.” But because
other jurisdictions use the phrase “malicious prosecution,”
that phrase will appear several times in this petition as well.
The Court should treat the two phrases as interchangeable.

6
H. Alderman, Jr. (Ion Bank’s lawyer), and Alderman &
Alderman, LLC (Myles H. Alderman, Jr.’s law firm)—
all of whom are respondents here. Pet. App. 37a-39a.
Petitioner’s suit alleged that “[e]ach material
allegation in the complaint(s) was unsupported by
knowledge of facts, actual or apparent, strong enough
to justify the defendants in the belief that they had
lawful grounds for prosecuting Metcalf in the
complaint(s).” Pet. App. 46a; see id. 48a (“At the time
the complaint was filed in the Underlying Action, and
at all times between the date of filing and the date of
the withdrawal and the entry of the dismissal, the
defendants knew or should have known, that all of the
claims made against Metcalf were without factual merit
and/or were time-barred by the applicable statutes of
limitations.”). The suit further alleged that “[t]he
defendants instituted the Underlying Action against
Metcalf without probable cause and with malice,” and
that “[a]fter the initiation of suit, the defendant,
Fitzgerald, continued to maintain and prosecute the
Underlying Action against Metcalf without probable
cause and with malice.” Id. 48a. Petitioner sought
compensatory damages, including attorney’s fees,
damages flowing from the three-year cloud on his
discharge, damages flowing from reputational harm,
and other forms of damages. Id. 49a-63a. Petitioner
also sought statutory double and treble damages. Id.
The Connecticut Superior Court dismissed
Petitioner’s suit on the basis of federal preemption,
relying on Lewis v. Chelsea G.C.A. Realty Partnership,
L.P., 862 A.2d 368 (Conn. App. Ct. 2004). Pet. App.
35a-36a.
Petitioner appealed to the Connecticut

7
Appellate Court, which transferred the appeal to the
Connecticut Supreme Court. Id. 4a-5a.
The Connecticut Supreme Court affirmed. The
court acknowledged that Petitioner’s state-law claims
were not expressly preempted, Pet. App. 9a-12a, but
nonetheless held that they were impliedly preempted.
Id. 13a. The court followed “the majority of federal as
well as state courts that have analyzed whether the
Bankruptcy Code occupies the field of penalties and
sanctions.”
Id.
It relied specifically on MSR
Exploration, Ltd. v. Meridian Oil, Inc., 74 F.3d 910
(9th Cir. 1996), which it viewed as “directly on point
with the present case.” Pet. App. 16a.
The court first opined that the “Bankruptcy Code
occupies the field of penalties and sanctions for abuse of
the bankruptcy process.” Pet. App. 17a. It cited two
bankruptcy provisions in support of this proposition.
The first was 11 U.S.C. § 105, which provides: “The
court may issue any order, process, or judgment that is
necessary or appropriate to carry out the provisions of
this title.” Id. 18a & n.3. The court stated that this
statute “broadly authorizes bankruptcy courts to issue
any process, order, or judgment necessary to prevent
abuse of the bankruptcy process,” and inferred that
“Congress did not limit or carve out from this broad
grant a vexatious litigation exception for the states to
legislate within.” Id. 18a. The second was Federal
Rule of Bankruptcy Procedure 9011(b), which
authorizes a court to sanction parties who file
documents “for any improper purpose, such as to
harass, cause unnecessary delay, or needlessly increase
the cost of litigation.” Id. 20a-21a & n.11. The court

8
acknowledged that Rule 9011 is closely similar to
Federal Rule of Civil Procedure 11, and that the
advisory committee notes to Rule 11 state that it “‘does
not preclude a party from initiating an independent
action for malicious prosecution or abuse of process.’”
Id. 21a (quoting Fed. R. Civ. P. 11, advisory committee
notes, 28 U.S.C. app., p. 783 (2012)). But the court
observed that “[c]ommittee notes are a product of the
rules advisory committee, not Congress.” Id.
The court then held that in bankruptcy law, “the
federal interest is so dominant that federal law is
assumed to preclude enforcement of state laws on the
subject.”
Pet. App. 23a.
In the court’s view,
“permitting state law claims for abuse of the
bankruptcy process threatens the uniformity of the
bankruptcy system.” Id. 24a. It expressed concern
that state courts would “develop adjudication
standards for matters such as probable cause, bad faith,
and malicious prosecution” that are “at odds with, the
standards that have developed in the bankruptcy
courts.” Id. 25a. The court also expressed concern that
“permitting state law actions would allow parties to
collaterally attack the bankruptcy process, threatening
the finality of the proceedings as well as the ability of
the parties—debtors and creditors alike—to make a
fresh start once the bankruptcy proceeding concludes.”
Id. 26a.
The court also concluded that Petitioner’s lawsuit
was “preempted under a conflict preemption analysis
because they are an obstacle to accomplishing
Congress’ purpose within the Bankruptcy Code.” Pet.
App. 31a. The court opined that “Congress enacted the

9
Bankruptcy Code inclusive of penalties and protections
to govern the orderly conduct of debtors’ affairs and
creditors’ rights. Permitting parties to bring abuse of
process actions in state court hinders Congress’
objective of uniformly defining the scope and
availability of remedies for abuse of the bankruptcy
process.” Id. 33a.
The court expressly acknowledged the conflict of
authority on the question presented. As the court
explained, the Supreme Court of Texas has held that
the Bankruptcy Code does not preempt state-law
vexatious litigation claims arising from adversary
actions in bankruptcy proceedings. Pet. App. 27a-29a;
see Graber v. Fuqua, 279 S.W.3d 608 (Tex. 2009). The
Graber court “concluded that 11 U.S.C. § 105 and rule
9011 do not preempt state law claims for malicious
prosecution because they are imported from existing
federal law and represent Congress’ implicit acceptance
of state law malicious prosecution claims.” Pet. App.
28a-29a (citing Graber, 279 S.W.3d at 613). The
Connecticut Supreme Court further observed that
“[a]lthough that is still a minority view, some courts, in
light of Graber, similarly have held that the Bankruptcy
Code does not preempt state law causes of action
providing damages for abuse of the bankruptcy
process.” Id. 29a (citing U.S. Express Lines, Ltd. v.
Higgins, 281 F.3d 383, 393 (3d Cir. 2002), and R.L.
LaRoche, Inc. v. Barnett Bank of S. Fla., N.A., 661 So.
2d 855, 857 (Fla. Dist. Ct. App. 1995)).
But the Connecticut Supreme Court “disagree[d]
with the minority approach to the preemption
analysis.” Pet. App. 29a. It found that the Texas

10
Supreme Court “failed to consider the structure and
purpose of the Bankruptcy Code and, consequently,
failed to recognize that Congress legislated so
comprehensively as to occupy the entire field of
regulation.” Id. 29a-30a.
REASONS FOR GRANTING THE WRIT
I.

THERE IS A CONFLICT OF AUTHORITY
ON THE QUESTION PRESENTED.

As the Connecticut Supreme Court recognized, the
court’s decision deepens a conflict of authority on
whether the Bankruptcy Code preempts state-law
vexatious litigation claims arising from bankruptcy
proceedings.
The decision below is consistent with MSR
Exploration, Ltd. v. Meridian Oil, Inc., 74 F.3d 910, 914
(9th Cir. 1996), a decision the Connecticut Supreme
Court viewed as “directly on point with the present
case.” Pet. App. 16a. In MSR, as in this case, the
plaintiff was a debtor in bankruptcy. After the
bankruptcy proceeding concluded, the debtor brought a
malicious prosecution claim against certain creditors,
claiming that they had “maliciously filed and pursued
creditors’ claims.” 74 F.3d at 911. The Ninth Circuit
held that the claim was preempted. It found it “very
unlikely that Congress intended to permit the
superimposition of state remedies on the many
activities that might be undertaken in the management
of the bankruptcy process.” Id. at 914. The court
concluded that “the highly complex laws needed to
constitute the bankruptcy courts and regulate the
rights of debtors and creditors also underscore the

11
need to jealously guard the bankruptcy process from
even slight incursions and disruptions brought about by
state malicious prosecution actions.” Id.
Likewise, in PNH, Inc. v. Alfa Laval Flow, Inc., 958
N.E.2d 120 (Ohio 2011), the Ohio Supreme Court
concluded that “[t]he United States Bankruptcy Code
preempts state-law causes of action for misconduct
committed by a litigant during a bankruptcy court
proceeding.” Id. at 127. The court acknowledged the
“split of authority regarding whether the Bankruptcy
Code preempts state-law causes of action that allow the
recovery of damages for a litigant’s abuse of a
bankruptcy court proceeding.” Id. at 125. The court
observed that “[s]ome jurisdictions hold that these
types of claims are not preempted by federal
bankruptcy law.” Id. “In contrast, courts in other
jurisdictions reason that because the uniformity of
bankruptcy law is a constitutional requirement as well
as a practical necessity, Congress has implicitly
preempted state-law tort claims that would allow
recovery for misconduct committed in bankruptcy
cases.” Id. at 125-26. The court adopted the latter
view. Id. at 126. It reasoned that “Congress has
established a comprehensive legislative scheme
intended to promote the uniformity of bankruptcy law,
which provides for federal remedies to deter the abuse
of bankruptcy proceedings.
Permitting additional
state-law claims for misconduct occurring during a
bankruptcy proceeding would, in our view,
impermissibly disrupt the uniformity of bankruptcy law
by establishing separate remedies for Ohio litigants in a

12
field of law that Congress intended to occupy
exclusively.” Id. at 126-27.
The Pennsylvania Supreme Court, too, has held that
“the Bankruptcy Code preempts a state law claim of
abuse of process based upon a frivolous claim filed in
Bankruptcy Court proceedings.” Stone Crushed P’ship
v. Kassap Archbold Jackson & O’Brien, 908 A.2d 875,
880 (Pa. 2006). The court acknowledged that “courts
have not uniformly determined whether the
Bankruptcy Code preempts state law concerning a
state action for abuse of process or wrongful use of civil
procedure.” Id. at 881. The court noted “a string of
cases from other jurisdictions” finding preemption,
highlighting the Ninth Circuit’s MSR decision. Id. at
882-83. But “[c]onversely, a second line of cases exists
in which abuse of process has been found to be outside
of the scope of preemption of the Bankruptcy Code.”
Id. at 883. “After reviewing the case law from other
jurisdictions,” the court was “persuaded that, although
the greater sanctions available under the Bankruptcy
Code are not directly applicable to the case at hand, the
Code’s provision of remedies and sanctions implies an
intent to govern sanctions as they relate to Bankruptcy
Court proceedings.” Id. at 886.
As the Connecticut Supreme Court recognized,
however (Pet. App. 28a-29a), its decision conflicts with
Graber v. Fuqua, 279 S.W.3d 608 (Tex. 2009). In
Graber, the court considered the exact question here:
“whether a state malicious prosecution claim is
preempted by the federal bankruptcy regime simply
because the claim arose out of the filing of an adversary
action in a bankruptcy proceeding.” Id. at 609-10. The

13
court held that “preemption of Fuqua’s malicious
prosecution claim is not warranted.” Id. at 610. The
court explained: “[T]he only broad provisions that
apply to adversary proceedings—Rule 9011 and section
105(a)—evidence not an intent to preempt, but rather
an intent to preserve the existing framework of federal
procedure that does not preempt state malicious
prosecution claims. In light of the well-established
general rule that federal law does not preempt
malicious prosecution claims predicated on conduct in
federal court, we are unable to find the requisite
evidence of an intent to preempt these same claims in
bankruptcy.” Id. at 616. The court then rejected the
argument that “preemption is warranted by the risk of
disrupting uniformity in bankruptcy.” Id. at 617. It
found that “Congress has yet to actually exercise its
power to unify this aspect of bankruptcy and suppress
the disparate state laws of malicious prosecution.” Id.
at 620.
The court expressly acknowledged it was creating a
conflict of authority.
It stated:
“While some
jurisdictions hold that bankruptcy statutes preempt
malicious prosecution claims predicated on the bringing
of an adversary proceeding, the opinions of those
jurisdictions do not bind us; nor do the arguments that
they have accepted persuade us.” Id. at 620 n.13
(citations omitted).
Likewise, as the Connecticut Supreme Court
acknowledged (Pet. App. 29a), its decision conflicts
with U.S. Express Lines, Ltd. v. Higgins, 281 F.3d 383
(3d Cir. 2002). In Higgins, the court held that “the
Federal Rules of Civil Procedure do not preempt claims

14
for abuse of process and similar torts providing relief
for misconduct in federal litigation.” Id. at 393. In
reaching that conclusion, the court observed that
“[d]espite the broad scope of remedies available in the
[Bankruptcy] Code and the general exclusivity of the
federal courts in bankruptcy, we have held that a state
claim for malicious abuse of process was not
preempted.” Id. at 393. The court cited Paradise Hotel
Corp. v. Bank of Nova Scotia, 842 F.2d 47 (3d Cir.
1988), in which the court held that a debtor did not
waive a bad-faith claim against a creditor by failing to
raise it in the bankruptcy proceeding. Id. at 51-52.
Thus, there is a conflict of authority on whether the
Bankruptcy Code preempts state-law vexatiouslitigation claims arising from adversary actions in
bankruptcy proceedings.
II.

THE COURT SHOULD RESOLVE THE
CONFLICT OF AUTHORITY IN THIS
CASE.

The Court should grant certiorari and resolve the
conflict in this case. No further percolation would be
helpful. As explained above, the Connecticut Supreme
Court’s decision is one of numerous detailed decisions
addressing the question presented. Indeed, not only
the Connecticut Supreme Court, but also the Texas
Supreme Court, Ohio Supreme Court, and
Pennsylvania Supreme Court, have expressly
acknowledged the split, analyzed the arguments on
both sides, and picked a side. The arguments on both
sides of the split have now been thoroughly aired in the
lower courts, and this Court’s intervention is now
warranted.

15
The question presented is important. It affects the
legal rights of any debtor who faces an adversary
proceeding in bankruptcy. It is the subject of constant
litigation in lower courts. See Pet. App. 14a-15a
(collecting lower court cases). Yet this Court has
offered little guidance on implied preemption in the
bankruptcy context—forcing courts to reason from first
principles. See, e.g., id. 23a (“Nothing less than the
constitution of the United States persuades us that
Congress’ interest in uniformity in the bankruptcy
process is so dominant as to preempt collateral attacks
through state law vexatious litigation and CUTPA
claims.”). This important issue cries out for Supreme
Court guidance.
The conflict of authority may also create a risk of
forum-shopping. Debtors frequently have the option of
bringing a vexatious-litigation claim in multiple
jurisdictions. The debtor could sue in the jurisdiction
where the creditor resides (which would have general
jurisdiction); it could sue in the jurisdiction where the
bankruptcy petition was filed (which would presumably
have specific jurisdiction); and it could sue in any other
jurisdiction with a sufficient connection to the tort, such
as where the defendants plotted or accomplished their
tortious acts. Debtors will simply pick the jurisdiction
in which federal law is most favorable—a result
antithetical to the principle that federal law should be
the same in every jurisdiction.
This case is an ideal vehicle. The trial court
dismissed the complaint, and the Connecticut Supreme
Court affirmed, purely on the basis of federal

16
preemption. That holding is squarely presented for this
Court’s review.
III.

THE CONNECTICUT SUPREME COURT’S
DECISION IS WRONG.

The Connecticut Supreme Court erred in holding
that Petitioner’s claims were preempted. The court
should have followed the Texas Supreme Court’s
decision in Graber, and allowed the claims to proceed.
Nothing in Rule 9011 or 11 U.S.C. § 105 suggests
that Congress intended to occupy the field of remedies
for abusive litigation. As to Rule 9011, the Texas
Supreme Court’s analysis is persuasive and correct.
“Because Rule 9011 is almost identical to Rule 11,
courts often merge their substantive analysis of the
rules.” Graber, 279 S.W.3d at 613. “It is well settled
that the Federal Rules of Civil Procedure, including
Rule 11, do not preempt malicious prosecution claims
predicated on federal civil actions.” Id. “Because Rule
11 does not preempt state malicious prosecution claims
normally, and because Congress intended to replicate
that framework in bankruptcy adversary proceedings,
Rule 9011 does not evidence Congress’s intent to
preempt malicious prosecution claims. Its importation
militates, instead, directly against preemption.” Id. at
614.
As to 11 U.S.C. § 105, this statute “gives
bankruptcy courts broad, general police powers[.]” Id.
But, as the Texas Supreme Court correctly explained,
“federal courts hearing general civil actions possess
this same power inherently.” Id. at 614-15 (citing
Chambers v. NASCO, Inc., 501 U.S. 32 (1991)). “For

17
the same reasons that merely importing Rule 11 does
not evidence Congress’s intent to create an exceptional
preemption result, importing the power recognized by
Chambers does not either.” Id. at 615.
Nothing in the Connecticut Supreme Court’s
analysis supports a contrary conclusion.
The
Connecticut Supreme Court observed that Section 105
and Rule 9011(b) give bankruptcy courts broad
authority to police abusive litigation, and leapt to the
conclusion that “it is clear that Congress occupied the
field by legislating comprehensively as to penalties and
sanctions for abuse of that process.” Pet. App. 22a.
But nothing in the text of Section 105 or Rule 9011(b)
suggests that Congress “occupied the field.” These
provisions are naturally understood to perform the
same function as the analogous rules in ordinary civil
litigation—they allow a judge to sanction abusive
litigation in the judge’s own courtroom, while leaving
the door open for litigants to pursue follow-up
vexatious-litigation claims in state court.
Contrary to the Connecticut Supreme Court’s
reasoning, the need for “uniformity of bankruptcy law”
provide no basis for preemption. The court expressed
concern that “state courts evaluating claims that
involve abuse of the bankruptcy process would need to
develop adjudication standards for matters such as
probable cause, bad faith, and malicious prosecution, to
name a few. Those standards may be different from,
and at odds with, the standards that have developed in
the bankruptcy courts.” Pet. App. 25a.
That
observation does not justify the Connecticut Supreme
Court’s sweeping preemption holding.
If those

18
standards are, in fact, inconsistent with the standards
developed in bankruptcy courts, then such state-law
standards would be preempted. But the Connecticut
Supreme Court identified no actual inconsistency
between Connecticut’s standards and the standards
that have developed in bankruptcy courts.
The Connecticut Supreme Court also stated that
“permitting state law actions would allow parties to
collaterally attack the bankruptcy process, threatening
the finality of the proceedings as well as the ability of
the parties—debtors and creditors alike—to make a
fresh start once the bankruptcy proceeding concludes.”
Pet. App. 26a. But the “threat[]” to “finality” is no
greater than in ordinary civil litigation. And nothing in
the Bankruptcy Code guarantees a fresh start for
debtors or creditors who abuse the bankruptcy
process. A person who commits bankruptcy fraud, for
instance, may be denied a discharge and may be
criminally prosecuted for his actions after the
bankruptcy proceeding concludes.
The Connecticut Supreme Court similarly erred in
finding conflict preemption. The court found that
“[p]ermitting parties to bring abuse of process actions
in state court hinders Congress’ objective of uniformly
defining the scope and availability of remedies for
abuse of the bankruptcy process.” Pet. App. 33a. But
nothing in the Bankruptcy Code suggests that
Congress actually had this “objective”—as opposed to
the objective of giving bankruptcy courts the authority
to manage their proceedings, while also permitting
litigants to pursue traditionally available remedies for
abusive litigation.

19
Of course, conflict preemption unquestionably
serves an important purpose in federal bankruptcy law.
Any time a state imposes a substantive rule that is
inconsistent with a substantive rule of federal
bankruptcy law, the state law is preempted. For
instance, lower courts have uniformly held that state
laws that would have the effect of altering the federal
priority scheme are preempted. See, e.g., In re Leslie,
520 F.2d 761, 762 (9th Cir. 1975). This is because the
Bankruptcy Code embodies a judgment that certain
creditors should get funds in a certain order; a state law
that redistributed those funds to other creditors would
be inconsistent with that judgment. Likewise, state
laws that would have the effect of hindering debtors or
creditors from exercising rights guaranteed to them
under the Bankruptcy Code would be preempted. See,
e.g., In re Thorpe Insulation Co., 677 F.3d 869, 890 (9th
Cir. 2012).
But nothing of the sort is at issue here. Nowhere
did the Connecticut Supreme Court suggest that
Petitioner was seeking a remedy based on conduct that
would not have been sanctionable in the bankruptcy
court. Petitioner did not move for sanctions in the
bankruptcy court, but he did not have to: as the Texas
Supreme Court explained, the availability of a
sanctions remedy in federal court does not bar a litigant
from bringing a vexatious-litigation claim in state
court. If federal law would regard a claim as malicious
and sanctionable, the existence of a state remedy for
the filing of that malicious and sanctionable claim is not
an obstacle to any federal purpose.

20
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
BRUCE L. ELSTEIN
GOLDMAN, GRUDER &
WOODS, LLC
105 Technology Drive
Trumbull, CT 06611

ADAM G. UNIKOWSKY
Counsel of Record
JENNER & BLOCK LLP
1099 New York Ave., NW,
Suite 900
Washington, DC 20001
(202) 639-6000
aunikowsky@jenner.com

APPENDIX

Appendix A
Supreme Court of Connecticut.
Jonathan S. METCALF
v.
Michael FITZGERALD et al.
(SC 20227)
Argued March 29, 2019
Officially released September 3, 2019
D’AURIA, J. In this appeal, we are asked to
determine whether the United States Bankruptcy Code
provisions permitting bankruptcy courts to assess
penalties and sanctions preempt state law claims for
vexatious litigation and violation of the Connecticut
Unfair Trade Practices Act (CUTPA), General Statutes
§ 42-110a et seq. The plaintiff, Jonathan S. Metcalf,
brought state law claims against the defendants, Michael
Fitzgerald, Ion Bank (bank), Myles H. Alderman, Jr.,
and Alderman & Alderman, LLC (law firm), for alleged
vexatious litigation and for unfair and deceptive
business acts or practices during the plaintiff’s
underlying bankruptcy proceeding.
The plaintiff
appeals from the trial court’s granting of the motion to
dismiss filed by Alderman and the law firm, for lack of
subject matter jurisdiction on the ground that federal
bankruptcy law preempts the claims. The trial court
determined that the outcome of the motion was
controlled by the Appellate Court’s decision in Lewis v.
Chelsea G.C.A. Realty Partnership, L.P., 86 Conn. App.
596, 862 A.2d 368 (2004), cert. denied, 273 Conn. 909, 870
A.2d 1079 (2005). The court in Lewis held that the

2a
Bankruptcy Code preempted CUTPA and vexatious
litigation claims for alleged abuse of the bankruptcy
process. Id., at 605–607, 862 A.2d 368. The plaintiff
contends that the court in Lewis did not properly
evaluate each of the three types of preemption by which
Congress manifests its intent to preempt state law and
failed to consider the relevant Bankruptcy Code
provisions. See 11 U.S.C. § 105 (2012); Fed. R. Bankr. P.
9011. We disagree and affirm the judgment of the trial
court.
The following facts, as set forth in the plaintiff’s
complaint, and procedural history are relevant to our
review of the plaintiff’s claim. The plaintiff’s business,
Metcalf Paving Company, filed a chapter 11 bankruptcy
petition in 2009. See 11 U.S.C. § 1101 et seq. (2012). The
Metcalf Paving Company bankruptcy thereafter was
converted to a case under chapter 7 of the Bankruptcy
Code. See 11 U.S.C. § 701 (2012). The plaintiff then filed
individually for bankruptcy under chapter 7. The bank,
one of the plaintiff’s creditors in the bankruptcy
proceeding, subsequently commenced an adversary
proceeding against the plaintiff under §§ 523 (a) and 727
(a) (7) of the Bankruptcy Code. Under these provisions,
the bank objected to the discharge of the plaintiff’s debt,
asserting, among other allegations, that the plaintiff had
failed to deliver a check, failed to provide documents,
failed to disclose a website that he allegedly used for a
new business, took possession of expensive machinery,
unlawfully transferred property, destroyed property of
the estate, defrauded creditors, and fraudulently
withheld information from the chapter 7 trustee. In
response, the plaintiff presented evidence to the

3a
Bankruptcy Court to contradict the allegations and
moved for summary judgment. Upon reviewing the
plaintiff’s evidence, the bank moved to dismiss the
adversary proceeding. The Bankruptcy Court granted
the motion to dismiss.
The plaintiff subsequently commenced this action in
the Superior Court. In his complaint, the plaintiff set
forth claims for vexatious litigation against all the
defendants, and CUTPA claims against Fitzgerald and
the bank. In support of the vexatious litigation claims,
the plaintiff alleged that the defendants had initiated the
adversary proceeding without probable cause and with
malice, maintained the proceeding without probable
cause and with malice, and, as a result, caused him to
suffer damages.
The plaintiff claimed that the
defendants knew or should have known that the
allegations they made during the adversary proceeding
were without factual merit and were barred by the
applicable statute of limitations. In support of the
CUTPA claims, the plaintiff alleged that Fitzgerald and
the bank repeatedly engaged in unfair and deceptive
acts or practices during the bankruptcy proceeding, and
that their conduct had been so frequent as to constitute
a general business practice. The plaintiff claimed
damages that included attorney’s fees, losses from an
inability to manage his business affairs, emotional
distress, expenditures of time, effort and resources, and
injuries to his business and professional reputation. The
plaintiff alleged that he was entitled to damages and
costs under the common law, double damages and treble
damages under Connecticut’s vexatious litigation
statute, General Statutes § 52-568, and punitive

4a
damages and attorney’s fees under CUTPA.
General Statutes § 42-110g.

See

Alderman and the law firm moved to dismiss the
vexatious litigation claims on the ground that the claims
arose from conduct that allegedly had taken place within
a bankruptcy proceeding and were, therefore,
preempted by the Bankruptcy Code. The trial court
agreed, granted the motion to dismiss the vexatious
litigation claims and, on its own motion and for the same
reason, dismissed the remaining counts of the complaint,
including the CUTPA claims, for lack of subject matter
jurisdiction. The trial court cited Lewis v. Chelsea
G.C.A. Realty Partnership, L.P., supra, 86 Conn. App.
at 596, 862 A.2d 368, in support of its decision.
In Lewis, the Appellate Court held that bankruptcy
law preempted state law CUTPA and vexatious
litigation claims. Id., at 605–607, 862 A.2d 368. The
Appellate Court reasoned that “[t]he exclusivity of
federal jurisdiction over bankruptcy proceedings, the
complexity and comprehensiveness of Congress’
regulation in the area of bankruptcy law and the
existence of federal sanctions for the filing of frivolous
and malicious pleadings in bankruptcy must be read as
Congress’ implicit rejection of alternative remedies such
as those the plaintiff seeks.” Id., at 605, 862 A.2d 368.
Accordingly, the court in Lewis remanded the case to the
trial court with direction to dismiss the action. Id., at
607, 862 A.2d 368.
Upon the trial court’s dismissal of the present action,
the plaintiff timely appealed to the Appellate Court. The
appeal was then transferred from the Appellate Court to

5a
this court. See General Statutes § 51-199 (c); Practice
Book § 65-1.
On appeal, the plaintiff’s sole claim is that the trial
court incorrectly concluded that federal bankruptcy law
preempted his state law claims for vexatious litigation
1
and violations of CUTPA. Specifically, the plaintiff
argues that this court should not follow the holding in
Lewis because that court failed to conduct a proper
preemption analysis. Additionally, the plaintiff argues
that his state law claims are neither expressly nor
implicitly preempted and do not conflict with Congress’
objectives in the Bankruptcy Code. We disagree.
We begin with our well established standard of
review for reviewing a trial court’s decision on a motion
to dismiss: “A motion to dismiss tests, inter alia,
whether, on the face of the record, the court is without
1

Count seven of the plaintiff’s complaint alleged that Fitzgerald and
the bank violated CUTPA. Fitzgerald and the bank moved to
dismiss counts eight through thirteen of the complaint, which
alleged vexatious litigation. On its own motion, the trial court
dismissed the CUTPA claim on the same ground as it dismissed the
vexatious litigations claims—lack of subject matter jurisdiction.
In his brief to this court, the plaintiff did not specifically identify or
analyze the CUTPA claim but, rather, referred to it only generally
by stating that the “vexatious litigation claims and the like were not
intended to be preempted by the Bankruptcy Code and its rules”
and that, “[a]ccordingly, it should be held that no claim brought here
was preempted or intended to be preempted by the federal rules
applicable.” (Emphasis added.) Although the plaintiff’s brief is
imprecise, because the defendants have not argued that the plaintiff
has waived the CUTPA claims, we consider the plaintiff’s argument
as applying to both the vexatious litigation claims and the CUTPA
claims.

6a
jurisdiction.... [O]ur review of the court’s ultimate legal
conclusion and resulting [determination] of the motion to
dismiss will be de novo.... When a ... court decides a
jurisdictional question raised by a pretrial motion to
dismiss, it must consider the allegations of the complaint
in their most favorable light.... In this regard, a court
must take the facts to be those alleged in the complaint,
including those facts necessarily implied from the
allegations, construing them in a manner most favorable
to the pleader.... The motion to dismiss ... admits all facts
which are well pleaded, invokes the existing record and
must be decided upon that alone.... In undertaking this
review, we are mindful of the well established notion
that, in determining whether a court has subject matter
jurisdiction, every presumption favoring jurisdiction
should be indulged.”
(Internal quotation marks
omitted.) Dorry v. Garden, 313 Conn. 516, 521, 98 A.3d
55 (2014).
Turning to the legal principles at issue, we note that
the supremacy clause of the United States constitution;
see U.S. Const., art. VI, cl. 2; provides that federal law
“shall be the supreme Law of the Land; and the Judges
in every [S]tate shall be bound thereby, any Thing in the
Constitution or Laws of any [S]tate to the Contrary
notwithstanding.... Under this principle, Congress has
the power to pre-empt state law.” (Citation omitted;
internal quotation marks omitted.) Arizona v. United
States, 567 U.S. 387, 399, 132 S. Ct. 2492, 183 L. Ed. 2d
351 (2012).
The bankruptcy clause of the United States
constitution grants Congress the power “[t]o establish ...
uniform Laws on the subject of Bankruptcies

7a
throughout the United States ....” U.S. Const., art. I, § 8,
cl. 4. District courts of the United States have “original
and exclusive jurisdiction of all cases under title 11.” 28
U.S.C. § 1334 (a) (2012). Through title 11 of the United
States Code, Congress provided “a comprehensive
federal system of penalties and protections to govern the
orderly conduct of debtors’ affairs and creditors’ rights.”
Eastern Equipment & Services Corp. v. Factory Point
National Bank, 236 F.3d 117, 120 (2d Cir. 2001); see 11
U.S.C. § 101 et seq. (2012). As for sanctions for abuse of
the bankruptcy process, the Bankruptcy Code provides
a variety of remedies. See, e.g., 11 U.S.C. § 105 (a) (2012)
2
(authority to prevent abuse of process); 11 U.S.C. § 303
3
(i) (2) (2012) (bad faith filing of involuntary petitions); 11
U.S.C. § 930 (a) (2) (2012) (dismissal for unreasonable
4
delay); see also Fed. R. Bankr. P. 9011 (b) and (c)
2

Section 105 (a) of title 11 of the 2012 edition of the United States
Code provides: “The court may issue any order, process, or
judgment that is necessary or appropriate to carry out the
provisions of this title. No provision of this title providing for the
raising of an issue by a party in interest shall be construed to
preclude the court from, sua sponte, taking any action or making
any determination necessary or appropriate to enforce or
implement court orders or rules, or to prevent an abuse of process.”

3

Section 303 (i) of title 11 of the 2012 edition of the United States
Code provides in relevant part: “If the court dismisses a petition
under this section other than on consent of all petitioners and the
debtor ... the court may grant judgment ... (2) against any petitioner
that filed the petition in bad faith for ... (A) ... any damages
proximately caused by such filing; or (B) punitive damages.”

4

Section 930 (a) of title 11 of the 2012 edition of the United States
Code provides in relevant part: “After notice and a hearing, the
court may dismiss a case under this chapter for cause, including ...

8a
5

(sanctions for frivolous and harassing filings). The
question before this court is whether the Bankruptcy
Code preempts vexatious litigation and CUTPA actions
brought in state court that provide for penalties and
sanctions, as well as damages for abuse of process.
This court has explained that there are three types
of preemption:
(1) express preemption, whereby
Congress has through clear statutory language
manifested its intent to preempt state law; (2) implied
preemption, whereby Congress has legislated so
comprehensively that federal law occupies an entire field
of regulation and leaves no room for state law (occupy
the field preemption); and (3) conflict preemption,
whereby state law conflicts with federal law such that it
is impossible for a party to comply with both or the local
law is an obstacle to the achievement of federal
objectives. See, e.g., Sarrazin v. Coastal, Inc., 311 Conn.
(2) unreasonable delay by the debtor that is prejudicial to the
creditors ....”
5

Rule 9011 of the Federal Rules of Bankruptcy Procedure provides
in relevant part: “(b) By presenting to the court (whether by
signing, filing, submitting, or later advocating) a petition, pleading,
written motion, or other paper, an attorney or unrepresented party
is certifying that to the best of the person’s knowledge, information,
and belief, formed after an inquiry reasonable under the
circumstances ... (1) it is not being presented for any improper
purpose, such as to harass or to cause unnecessary delay or needless
increase in the cost of litigation .... (c) If, after notice and a
reasonable opportunity to respond, the court determines that
subdivision (b) has been violated, the court may, subject to the
conditions stated below, impose an appropriate sanction upon the
attorneys, law firms, or parties that have violated subdivision (b) or
are responsible for the violation....”

9a
581, 592–93, 89 A.3d 841 (2014); see also English v.
General Electric Co., 496 U.S. 72, 78–79, 110 S. Ct. 2270,
110 L. Ed. 2d 65 (1990). The plaintiff contends that the
Bankruptcy Code does not preclude his state court
claims under express, implied, or conflict preemption.
He further argues that this court should overrule the
Appellate Court’s holding in Lewis that the Bankruptcy
Code preempts these claims because the Appellate
Court failed to properly address the three types of
preemption. Had it done so, according to the plaintiff,
the court would have concluded that federal bankruptcy
law does not preempt the state law claims at issue.
Before addressing the three types of preemption in
turn, it is important to note that the question of
preemption turns on Congress’ intent. We therefore
“begin as we do in any exercise of statutory
[construction] with the text of the provision in question,
and move on, as need be, to the structure and purpose of
the [federal law] in which it occurs.” (Internal quotation
marks omitted.) Air Transport Assn. of America, Inc.
v. Cuomo, 520 F.3d 218, 221 (2d Cir. 2008).
I
Regarding express preemption, the plaintiff argues
that the Bankruptcy Code does not contain an express
provision preempting the causes of action brought in this
case. We agree. “Express preemption occurs when
‘Congress ... withdraw[s] specified powers from the
[s]tates by enacting a statute containing an express
preemption provision.’ ” Trikona Advisers Ltd. v.
Chugh, 846 F.3d 22, 35 (2d Cir. 2017); accord Arizona v.
United States, supra, 567 U.S. at 399, 132 S. Ct. 2492. An
express preemption provision “expressly directs that

10a
state law be ousted to some degree from a certain field.”
Assn. of International Automobile Manufacturers, Inc.
v. Abrams, 84 F.3d 602, 607 (2d Cir. 1996). We find no
provision of the Bankruptcy Code that explicitly
precludes a state law CUTPA or vexatious litigation
6
claim.
This conclusion is not at odds with the conclusion the
7
Appellate Court reached in Lewis. The court in Lewis
did not evaluate express preemption because the parties
6

As an example of express preemption, the Medical Device
Amendments of 1976, 21 U.S.C. § 360c et seq. (2012), provides in
relevant part that, “[e]xcept as provided in subsection (b) of this
section, no State or political subdivision of a State may establish or
continue in effect with respect to a device intended for human use
any requirement—(1) which is different from, or in addition to, any
requirement applicable under this chapter to the device, and (2)
which relates to the safety or effectiveness of the device or to any
other matter included in a requirement applicable to the device
under this chapter.” 21 U.S.C. § 360k (a) (2012); see also Mullin v.
Guidant Corp., 114 Conn. App. 279, 285, 970 A.2d 733, cert. denied,
292 Conn. 921, 974 A.2d 722 (2009).
7

Having determined that Congress impliedly preempted the state
law claims by occupying the field, the court in Lewis did not need to
analyze express preemption. See Resolution Trust Corp. v.
Diamond, 18 F.3d 111, 125 (2d Cir.) (not addressing conflict
preemption after holding that express preemption applied), vacated
on other grounds sub nom. Pattullo v. Resolution Trust Corp., 513
U.S. 801, 115 S. Ct. 43, 44, 130 L. Ed. 2d 5 (1994); Depot, Inc. v.
Caring for Montanans, Inc., Docket No. 16-74-M-DLC, 2017 WL
3687339, *5 (D. Mont. February 14, 2017) (not reaching issue of
conflict preemption because plaintiffs’ claims were expressly
preempted). In the present case, we analyze all three types of
preemption to add clarity and because the parties addressed each of
them on appeal in this court.

11a
did not raise the issue. The defendant in Lewis argued
that bankruptcy law preempted vexatious litigation and
CUTPA claims under the theory of implied preemption
(occupy the field). See Lewis v. Chelsea G.C.A. Realty
Partnership, L.P., supra, 86 Conn. App. at 600, 862 A.2d
368. The court, therefore, did not reach the issue of
8
express preemption. “It is well settled that [o]ur case
law and rules of practice generally limit [an appellate]
court’s review to issues that are distinctly raised at
trial.”
Southport Congregational Church-United
Church of Christ v. Hadley, 320 Conn. 103, 119 n.21, 128
A.3d 478 (2016); see id. (declining to address risk of loss
provision raised for first time in brief).
Express preemption is not the only method by which
Congress can address the role that state law plays in
bankruptcy—it can affirmatively utilize state law and
has done so. For example, § 522 of the Bankruptcy Code
expressly permits debtors to choose either the
bankruptcy property exemption scheme under federal
law or the nonbankruptcy property exemption schemes
available under state law. See 11 U.S.C. § 522 (b) (2012);
8

Neither the parties nor the trial court in Lewis performed a
separate analysis of the three types of preemption. The defendant
in Lewis argued generally, in its motion for summary judgment, that
bankruptcy law preempted state law claims. The trial court granted
the defendant’s motion for summary judgment, stating that “[the]
court is preempted by federal law from acting on a claim intended
to sanction a party for its participation in a bankruptcy proceeding.”
Lewis v. Chelsea G.C.A. Realty Partnership, L.P., Superior Court,
judicial district of Waterbury, Docket No. X06-CV-96-0154801-S,
2003 WL 356680 (January 22, 2003) (34 Conn. L. Rptr. 5, 7), rev’d,
86 Conn. App. 596, 862 A.2d 368 (2004), cert. denied, 273 Conn. 909,
870 A.2d 1079 (2005).

12a
see also In re Pruitt, 401 B.R. 546, 554 (Bankr. D. Conn.
2009). The plaintiff interprets Congress’ utilization of
state law as evidence that Congress “clearly intended
for the bankruptcy courts to abstain from hearing
certain matters involving state law and interests.” We
agree that when Congress affirmatively permits the
operation of state law, state law can play a role.
However, the operation of state law is conditional upon
Congress’ inclusion of state law. “State [l]aw has a role
to play in bankruptcy only if Congress affirmatively
permits it.” In re Pruitt, supra, at 554. Here, Congress
did not affirmatively permit state law actions for abuse
of the bankruptcy process, and, consequently, we
conclude that the plaintiff’s argument fails.
II
Second, the plaintiff argues that Congress did not
intend to occupy the field of sanctions and remedies for
abuse of the bankruptcy process. The plaintiff states
that, by enacting the Bankruptcy Code, Congress
intended only to provide a uniform and orderly
administration of bankruptcy estates and payments to
creditors. As to his claims for vexatious litigation,
specifically, he contends that permitting such state law
claims would not affect the equitable distribution of a
debtor’s assets, and, therefore, they are not preempted.
We disagree.
To determine whether Congress has occupied a field,
we look to the overriding purpose of bankruptcy law to
infer Congress’ intent. “[A]bsent an explicit statement
that Congress intends to preempt state law, courts
should infer such intent where Congress has legislated
comprehensively to occupy an entire field of regulation,

13a
leaving no room for the [s]tates to supplement federal
law ....” (Internal quotation marks omitted.) Barbieri v.
United Technologies Corp., 255 Conn. 708, 717, 771 A.2d
915 (2001). “[O]ften, an [a]ct of Congress may touch a
field of law in which the federal interest is so dominant
that the federal system will be assumed to preclude
enforcement of state laws on the same subject.” Eastern
Equipment & Services Corp. v. Factory Point National
Bank, supra, 236 F.3d at 120.
We conclude that the Bankruptcy Code impliedly
preempts the plaintiff’s state law CUTPA and vexatious
litigation claims for two main reasons: (1) Congress
legislated so comprehensively as to occupy the entire
field of penalties and sanctions for abuse of the
bankruptcy process, leaving no room for state law to
supplement; and (2) the federal interest in uniformity is
so dominant that we assume it precludes enforcement of
state laws that threaten the uniformity and finality of
the bankruptcy process for debtors and creditors alike.
A
We agree with the defendants that Congress has
occupied the field of penalties and sanctions for abuse of
the bankruptcy process, thereby implicitly preempting
state law CUTPA and vexatious litigation claims. Our
conclusion is consistent with the majority of federal as
well as state courts that have analyzed whether the
Bankruptcy Code occupies the field of penalties and
sanctions. These courts have concluded that, because
Congress has enacted such a comprehensive statutory
scheme, inclusive of provisions for sanctions and
remedies for abuse of the bankruptcy process, Congress
has implicitly occupied the field, leaving no room for

14a
state law. See id., at 121 (concluding that preemption
precludes state law damages claims for violating
automatic stay provision of Bankruptcy Code because
Congress created lengthy, complex and detailed
Bankruptcy Code to achieve uniformity); MSR
Exploration, Ltd. v. Meridian Oil, Inc., 74 F.3d 910, 914
(9th Cir. 1996) (precluding state law claim for malicious
prosecution because “the adjustment of rights and
duties within the bankruptcy process itself is uniquely
and exclusively federal”); Astor Holdings, Inc. v. Roski,
325 F. Supp. 2d 251, 262 (S.D.N.Y. 2003) (barring state
law claims for filing papers in bankruptcy proceeding in
bad faith or for improper purpose because Bankruptcy
Code contains remedies for misuse of process, and “thus
such misuse is governed exclusively by that Code”);
Glannon v. Garrett & Associates, Inc., 261 B.R. 259, 263
(D. Kan. 2001) (“the Bankruptcy Code permits no state
law remedies for abuse of the bankruptcy provisions”);
Raymark Industries, Inc. v. Baron, Docket No. CIV
96-7625, 1997 WL 359333, *10 (E.D. Pa. June 23, 1997)
(justifying preemption on ground that Congress
expressed intent that bankruptcy matters be handled in
federal forum by placing bankruptcy jurisdiction
exclusively in district courts); Koffman v. Osteoimplant
Technology, Inc., 182 B.R. 115, 125 (D. Md. 1995)
(holding that state law tort actions are preempted by
Bankruptcy Code); Idell v. Goodman, 224 Cal. App. 3d
262, 271, 273 Cal. Rptr. 605 (1990) (holding that malicious
prosecution action was preempted by federal law
because “[t]he existence of federal sanctions for the
filing of frivolous and malicious bankruptcy pleadings
must be read as an implicit rejection of state court
remedies”); Smith v. Mitchell Construction Co., 225 Ga.

15a
App. 383, 386, 481 S.E.2d 558 (1997) (“ ‘state tort suits
are preempted by the federal Bankruptcy Code’ ”), cert.
denied, Docket No. 597C1344, 1997 Ga. LEXIS 858 (Ga.
October 3, 1997); Sarno v. Thermen, 239 Ill. App. 3d
1034, 1047, 180 Ill. Dec. 889, 608 N.E.2d 11 (1992)
(precluding state law conspiracy claim arising out of
involuntary bankruptcy proceeding); Longnecker v.
Deutsche Bank National Trust Co., Docket No. 12-2304,
2013 WL 6700312, *4 (Iowa App. December 18, 2013)
(“we conclude the federal bankruptcy code preempts
Iowa tort claims premised on litigants’ conduct in
bankruptcy court”); Mason v. Smith, 140 N.H. 696, 701,
672 A.2d 705 (1996) (holding that plaintiff’s state law tort
claims based on allegedly wrongful filing of involuntary
bankruptcy petition were impliedly preempted by
Bankruptcy Code); Stone Crushed Partnership v.
Kassab Archbold Jackson & O’Brien, 589 Pa. 296, 314,
908 A.2d 875 (2006) (concluding that sanctions in
Bankruptcy Code provide inference that Congress
intended to preempt state law remedies for frivolous
claims in field of bankruptcy).
For example, in Eastern Equipment & Services
Corp., the plaintiff-debtor brought state law claims in
the United States District Court alleging that, during
the bankruptcy proceeding, creditors wilfully violated
the automatic stay provision of the Bankruptcy Code by
pursuing foreclosure actions in state court. Eastern
Equipment & Services Corp. v. Factory Point National
Bank, supra, 236 F.3d at 119. The District Court
granted the creditors’ motion for judgment on the
pleadings, concluding that the Bankruptcy Code
preempted the state law claims, which should have been

16a
brought in the Bankruptcy Court. Id. On appeal, the
United States Court of Appeals for the Second Circuit
explained that a conclusion of preemption was compelled
by (1) Congress’ establishment of bankruptcy
jurisdiction exclusively in the district courts under 28
U.S.C. § 1334 (a), (2) Congress’ creation of a lengthy,
complex and detailed Bankruptcy Code to achieve
uniformity, (3) the constitution’s grant to Congress of
exclusive power over bankruptcy law, and (4) the
Bankruptcy Code’s provision of several remedies
designed to deter the misuse of the bankruptcy process.
Id., at 121.
In a case that is directly on point with the present
case, the United States Court of Appeals for the Ninth
Circuit in MSR Exploration, Ltd., addressed the
question of whether federal law preempts state law
malicious prosecution actions for events that had
occurred in connection with Bankruptcy Court
proceedings. MSR Exploration, Ltd. v. Meridian Oil,
Inc., supra, 74 F.3d at 912. In MSR Exploration, Ltd.,
the plaintiff debtor filed a chapter 11 bankruptcy
proceeding. Id. In response, the defendant creditors
filed claims against the debtor, to which the debtor
objected. Id. The Bankruptcy Court entered an order
disallowing the creditors’ claims. The debtor did not
pursue abuse of process sanctions or penalties in the
Bankruptcy Court. Id. Instead, the debtor brought a
state law malicious prosecution action in the United
States District Court. Id.
The Ninth Circuit concluded that the Bankruptcy
Code preempted the state law action for two main
reasons. Id., at 913. “First, Congress has expressed its

17a
intent that bankruptcy matters be handled in a federal
forum by placing bankruptcy jurisdiction exclusively in
the district courts ....” Id. Second, the complex, detailed,
and comprehensive Bankruptcy Code demonstrates
Congress’ intent to provide uniform and centralized
adjudication of all of the rights and duties of debtors and
creditors alike. Id., at 914. “It is very unlikely that
Congress intended to permit the superimposition of
state remedies on the many activities that might be
undertaken in the management of the bankruptcy
process....
[T]he highly complex laws needed to
constitute the bankruptcy courts and regulate the rights
of debtors and creditors also underscore the need to
jealously guard the bankruptcy process from even slight
incursions and disruptions brought about by state
malicious prosecution actions.” (Citations omitted.) Id.
Accordingly, the Ninth Circuit concluded that the
malicious prosecution action should have been brought
in the Bankruptcy Court and upheld the District Court’s
determination that it lacked subject matter jurisdiction
over the action. Id., at 916.
We agree with the holdings of the majority of courts
that have analyzed the issue and concluded that the
Bankruptcy Code occupies the field of penalties and
sanctions for abuse of the bankruptcy process. The
plaintiff, however, disputes our conclusion and argues
that a closer analysis of the Bankruptcy Code provisions
that permit penalties and sanctions reveals that
Congress did not intend to preempt his state law claims.
Performing the analysis the plaintiff advocates for only
further supports our conclusion that Congress occupied
the field of penalties and sanctions.

18a
9

We first examine 11 U.S.C. § 105, which grants
bankruptcy courts broad equitable powers to
“implement the provisions of Title 11 and to prevent an
abuse of the bankruptcy process.” In re Volpert, 110
F.3d 494, 500 (7th Cir. 1997), citing In re Rainbow
Magazine, Inc., 77 F.3d 278, 284 (9th Cir. 1996), and In
re Courtesy Inns, Ltd., Inc., 40 F.3d 1084, 1089 (10th Cir.
1994). The grant of equitable powers under § 105
broadly authorizes bankruptcy courts to issue any
process, order, or judgment necessary to prevent abuse
of the bankruptcy process. Congress did not limit or
carve out from this broad grant a vexatious litigation
exception for the states to legislate within. In practice,
bankruptcy courts have sanctioned parties for vexatious
litigation under that very provision. In In re Volpert,
supra, at 497, for example, the United States Court of
Appeals for the Seventh Circuit upheld a Bankruptcy
Court’s imposition of a $1000 sanction against an
attorney who had “abuse[d] the judicial process.” Id., at
501. In re Volpert illustrates that bankruptcy courts
have the authority, and in practice use that authority
under § 105, to achieve a purpose similar to that of a
state law remedy. In re Volpert supports our conclusion
that Congress intended to occupy the field of penalties
and sanctions for abuse of the bankruptcy process and
9

Section 105(a) of title 11 of the 2012 edition of the United States
Code provides: “The court may issue any order, process, or
judgment that is necessary or appropriate to carry out the
provisions of this title. No provision of this title providing for the
raising of an issue by a party in interest shall be construed to
preclude the court from, sua sponte, taking any action or making
any determination necessary or appropriate to enforce or
implement court orders or rules, or to prevent an abuse of process.”

19a
left no room for state law to operate. Additionally, we
are reassured by the fact that the Bankruptcy Code
provides remedies for the kind of abuse of process of
which the plaintiff complains. The plaintiff is not left
without a remedy, even after the bankruptcy proceeding
10
concludes.
The plaintiff argues that, because a cause of action
for vexatious litigation under Connecticut law provides
relief that is different from the sanctions contemplated
under 11 U.S.C. § 105, it falls outside the field that
Congress intended to occupy. We agree that the
penalties and damages available under a successful state
law claim for vexatious litigation are potentially more
extensive than those available under the Bankruptcy
Code. In Connecticut, a plaintiff can recover double
damages for an action brought without probable cause,
and treble damages for an action brought with malicious
intent to vex and trouble. General Statutes § 52-568.
Similarly, CUTPA permits a plaintiff to recover actual
and punitive damages. General Statutes § 42-110g (a).
In contrast, 11 U.S.C. § 105 grants bankruptcy courts
the discretion to issue any judgment necessary to
prevent abuse of the bankruptcy process. Although
Congress’ grant of such discretion is broad, the practical
effects of it may be that bankruptcy courts impose
sanctions less frequently, and for lesser dollar amounts,
than if the bankruptcy provisions more closely mirrored
10

Bankruptcy policy provides for cases to be “reopened on motion
of the debtor ....” Fed. R. Bankr. P. 5010. By opening the case, the
Bankruptcy Court has discretion to “administer assets [and] to
accord relief to the debtor ....” 11 U.S.C. § 350 (b) (2012).

20a
the language of the Connecticut statutes. But this
potential distinction in frequency and in kind does not
warrant an inference that Congress did not contemplate
penalties and sanctions. Rather, § 105 indicates that
Congress indeed considered penalties and sanctions, and
adopted a statutory scheme. “[I]t is for Congress and
the federal courts, not the state courts, to decide what
incentives and penalties are appropriate for use in
connection with the bankruptcy process and when those
incentives or penalties shall be utilized.” Gonzales v.
Parks, 830 F.2d 1033, 1036 (9th Cir. 1987).
Another provision furnishing bankruptcy courts
with authority to issue penalties and sanctions is rule
9011 of the Federal Rules of Bankruptcy Procedure. See
footnote 5 of this opinion. Under rule 9011 (b) and (c), a
court may sanction parties who file documents in bad
faith or for an “improper purpose, such as to harass or to
cause unnecessary delay or ... cost ....” Fed. R. Bankr. P.
9011 (b) (1). The plaintiff analogizes rule 9011 to rule 11
11
of the Federal Rules of Civil Procedure and argues
that, on the basis of their similarity, rule 9011 does not
preempt a state law vexatious litigation action. And it is
true that the language of the two rules is nearly
11

Rule 11 (b) of the Federal Rules of Civil Procedure provides in
relevant part: “By presenting to the court a pleading, written
motion, or other paper—whether by signing, filing, submitting, or
later advocating it—an attorney or unrepresented party certifies
that to the best of the person’s knowledge, information, and belief,
formed after an inquiry reasonable under the circumstances: (1) it
is not being presented for any improper purpose, such as to harass,
cause unnecessary delay, or needlessly increase the cost of litigation
....”

21a
identical. The plaintiff correctly points out that the 1993
advisory committee notes to rule 11 provide that the rule
“does not preclude a party from initiating an
independent action for malicious prosecution or abuse of
process.” Fed. R. Civ. P. 11, advisory committee notes,
28 U.S.C. app., p. 783 (2012). Additionally, the 1983
advisory committee notes to rule 7001 of the Federal
Rules of Bankruptcy Procedure, which pertains to
adversary proceedings, provide that the bankruptcy
rules “either incorporate or are adaptations of most of
the Federal Rules of Civil Procedure.” Fed. R. Bankr.
P. 7001, advisory committee notes, 11 U.S.C. app., p. 723
(2012). The plaintiff therefore argues that, because the
rules are similar, this court should conclude that rule
9011 incorporates the advisory committee notes from
rule 11, permitting a party to bring an independent
vexatious litigation or abuse of process action. We are
unpersuaded.
Although courts often look to advisory committee
notes for interpretive guidance; e.g., In re Old Carco,
LLC, 406 B.R. 180, 209 n.40 (Bankr. S.D.N.Y. 2009); they
do not constitute binding authority. In re Bressler, 600
B.R. 739, 744 (Bankr. S.D.N.Y. 2019) (discussing
advisory committee notes to rules 4004 and 4007 of the
Federal Rules of Bankruptcy Procedure). Committee
notes are a product of the rules advisory committee, not
Congress. United States v. Vonn, 535 U.S. 55, 64 n.6, 122
S. Ct. 1043, 152 L. Ed. 2d 90 (2002). And while advisory
committee notes can be “a reliable source of insight into
the meaning of a rule”; (internal quotation marks
omitted) Hall v. Hall, ––– U.S. ––––, 138 S. Ct. 1118,
1130, 200 L. Ed. 2d 399 (2018); the insight here speaks to

22a
rule 11, not rule 9011. Rule 9011 is silent as to the
application or inclusion of the advisory committee note.
“An inference drawn from congressional silence
certainly cannot be credited when it is contrary to all
other textual and contextual evidence of congressional
intent.” Burns v. United States, 501 U.S. 129, 136, 111 S.
Ct. 2182, 115 L. Ed. 2d 123 (1991). Here, in the context
of the Bankruptcy Code, congressional intent is clear—
the creation of “a comprehensive federal system of
penalties and protections to govern the orderly conduct
of debtors’ affairs and creditors’ rights.” Eastern
Equipment & Services Corp. v. Factory Point National
Bank, supra, 236 F.3d at 120; see 11 U.S.C. § 101 et seq.
(2012). Given this clear intent, it would be contrary to
textual and contextual evidence that Congress intended
to permit independent abuse of process actions outside
the bankruptcy process.
In view of the provisions that address penalties and
sanctions for abuse of the bankruptcy process, namely,
11 U.S.C. § 105 and rule 9011, it is clear that Congress
occupied the field by legislating comprehensively as to
penalties and sanctions for abuse of that process.
Accordingly, we conclude that Congress impliedly
preempted state law CUTPA and vexatious litigation
claims.
The Appellate Court in Lewis came to the same
conclusion, and we agree with Judge DiPentima’s cogent
analysis in that case. The Appellate Court explained
that “[t]he code contains remedies for the misuse of the
[bankruptcy] process ....” (Internal quotation marks
omitted.) Lewis v. Chelsea G.C.A. Realty Partnership,
L.P., supra, 86 Conn. App. at 602, 862 A.2d 368.

23a
“Although it is true that the federal remedies provided
for in the bankruptcy context do not offer the substantial
damages available under Connecticut’s vexatious
litigation statute and CUTPA, that is an insufficient
basis on which to preclude preemption.” Id., at 603–604,
862 A.2d 368. “The exclusivity of federal jurisdiction
over bankruptcy proceedings, the complexity and
comprehensiveness of Congress’ regulation in the area
of bankruptcy law and the existence of federal sanctions
for the filing of frivolous and malicious pleadings in
bankruptcy must be read as Congress’ implicit rejection
of alternative remedies ....” Id., at 605, 862 A.2d 368.
B
In addition to concluding that Congress implicitly
preempted state law actions by occupying the field of
bankruptcy law, we conclude that, in that field of law, the
federal interest is so dominant that federal law is
assumed to preclude enforcement of state laws on the
subject. E.g., Eastern Equipment & Services Corp. v.
Factory Point National Bank, supra, 236 F.3d at 120.
Nothing less than the constitution of the United States
persuades us that Congress’ interest in uniformity in the
bankruptcy process is so dominant as to preempt
collateral attacks through state law vexatious litigation
and CUTPA claims. The constitution grants Congress
the authority to establish “uniform Laws on the subject
of Bankruptcies throughout the United States ....” U.S.
Const., art. I, § 8, cl. 4. As described by Justice Joseph
Story, the reasons for conferring bankruptcy power
upon the United States “result from the importance of
preserving harmony, promoting justice, and securing
equality of rights and remedies among the citizens of all

24a
the states. It is obvious, that if the power is exclusively
vested in the states, each one will be at liberty to frame
such a system of legislation upon the subject of
bankruptcy and insolvency, as best suits its own local
interests and pursuits. Under such circumstances no
uniformity of system or operations can be expected....
There can be no other adequate remedy than giving a
power to the general government to introduce and
perpetuate a uniform system.”
2 J. Story,
Commentaries on the Constitution of the United States
(2d Ed. 1851) § 1107.
We approach the question of uniformity within the
bankruptcy process cognizant of the fact that state
courts can be hesitant to conclude that federal law
preempts state law claims. On this point, the United
States Supreme Court has stated that federal regulation
“should not be deemed preemptive of state regulatory
power in the absence of persuasive reasons—either that
the nature of the regulated matter permits no other
conclusion, or that the Congress has unmistakably so
ordained.” Florida Lime & Avocado Growers, Inc. v.
Paul, 373 U.S. 132, 142, 83 S. Ct. 1210, 10 L. Ed. 2d 248
(1963). Yet, against this backdrop, state courts have
concluded, as we do, that permitting state law claims for
abuse of the bankruptcy process threatens the
uniformity of the bankruptcy system. See, e.g., Smith v.
Mitchell Construction Co., supra, 225 Ga. App. at 386,
481 S.E.2d 558 (“[a]llowing state tort actions based on
allegedly bad faith bankruptcy filings ... would have the
effect of permitting state law standards to modify the
incentive structure of the Bankruptcy Code and its
remedial scheme ... threaten[ing] the uniformity of

25a
federal bankruptcy law”); Mason v. Smith, supra, 140
N.H. at 700, 672 A.2d 705 (“[a]llowing plaintiffs to pursue
alternative remedies in state courts for wrongful filings
would frustrate the uniformity of bankruptcy law
intended by Congress by allowing each [s]tate to
establish its own definition of ‘bad faith’ with regard to
the filing of involuntary petitions”).
Our concerns with respect to the uniformity of
bankruptcy law are twofold.
First, state courts
evaluating claims that involve abuse of the bankruptcy
process would need to develop adjudication standards
for matters such as probable cause, bad faith, and
malicious prosecution, to name a few. Those standards
may be different from, and at odds with, the standards
that have developed in the bankruptcy courts. See
Sarno v. Thermen, supra, 239 Ill. App. 3d at 1044, 180 Ill.
Dec. 889, 608 N.E.2d 11 (explaining that it would be
inconsistent with Congress’ intent for state courts to
develop different, more liberal tradition of bad faith for
malicious prosecution purposes than that developed in
federal system). It is foreseeable that states might
disagree over the extent of an available remedy for
abuse of process and the standard to be met. “State
courts are not authorized to determine whether a
person’s claim for relief under a federal law, in a federal
court, and within that court’s exclusive jurisdiction, is an
appropriate one. Such an exercise of authority would be
inconsistent with and subvert the exclusive jurisdiction
of the federal courts by allowing state courts to create
their own standards as to when persons may properly
seek relief in cases Congress has specifically precluded
those courts from adjudicating.” Gonzales v. Parks,

26a
supra, 830 F.2d at 1035. Varying standards for recovery
from state to state would serve to undermine the federal
interest in uniformity.
Second, permitting state law actions would allow
parties to collaterally attack the bankruptcy process,
threatening the finality of the proceedings as well as the
ability of the parties—debtors and creditors alike—to
make a fresh start once the bankruptcy proceeding
concludes. One of the overriding purposes of the
Bankruptcy Code is to provide debtors with a fresh
start. “It is the purpose of the Bankrupt Act to convert
the assets of the bankrupt into cash for distribution
among creditors and then to relieve the honest debtor
from the weight of oppressive indebtedness and permit
him to start afresh free from the obligations and
responsibilities consequent upon business misfortunes.”
Williams v. United States Fidelity & Guaranty Co., 236
U.S. 549, 554–55, 35 S. Ct. 289, 59 L. Ed. 713 (1915);
accord In re Renshaw, 222 F.3d 82, 86 (2d Cir. 2000).
Creditors benefit as well by having “a single forum
where debts and priorities can be determined in an
orderly manner, a forum where those debts can be
collected in whole or (more likely) in part.” MSR
Exploration, Ltd. v. Meridian Oil, Inc., supra, 74 F.3d
at 916. The potential threat of state court actions
following on the heels of a bankruptcy proceeding may
well interfere with the necessary actions that creditors
take within the bankruptcy process. Id. “[T]he mere
threat of state tort actions could prevent individuals
from exercising their rights in bankruptcy, thereby
disrupting the bankruptcy process.”
Eastern
Equipment & Services Corp. v. Factory Point National

27a
Bank, supra, 236 F.3d at 121, citing MSR Exploration,
Ltd. v. Meridian Oil, Inc., supra, at 913–16. For
example, the threat of a state law action could deter a
creditor from filing an adversary proceeding in the
Bankruptcy Court challenging the discharge of a debt.
We face that exact circumstance in the present case.
The threat is then compounded when the state law
action provides for substantial damage awards, as is also
the case at hand. See, e.g., Idell v. Goodman, supra, 224
Cal. App. 3d at 269, 273 Cal.Rptr. 605 (“[t]he additional
risk that substantial damage awards in state courts
would create a material disincentive to those seeking to
use the bankruptcy laws only exacerbates the problem”
[internal quotation marks omitted]). Both of these
uniformity concerns fortify our conclusion that the
Bankruptcy Code impliedly preempts state law CUTPA
and vexatious litigation claims. The Bankruptcy Code
provides the forum, incentives, penalties, and sanctions
that apply uniformly to debtors and creditors
nationwide.
In response, the plaintiff urges this court to adopt the
minority approach for evaluating implied preemption
articulated by the Supreme Court of Texas in Graber v.
Fuqua, 279 S.W.3d 608 (Tex.), cert. denied, 558 U.S. 880,
130 S. Ct. 288, 175 L. Ed. 2d 136 (2009). In Graber, the
court considered whether the Bankruptcy Code
preempted a state law malicious prosecution claim that
arose out of an adversary action in a bankruptcy
proceeding. Id., at 609–10. Similar to the facts of this
case, in Graber, a law firm had initiated an adversary
proceeding against a debtor who had filed a voluntary
chapter 7 petition in the Bankruptcy Court. Id. The

28a
petition resulted in a criminal investigation, an
indictment for bank fraud and tax fraud, and then
ultimately a trial in state court in which a jury found the
debtor not guilty on all charges. Id., at 610. The debtor
then sued the law firm in state court, alleging civil
malicious prosecution. Id. The law firm argued that the
court lacked subject matter jurisdiction because federal
bankruptcy law preempted the state law claim. The trial
court agreed and granted the motion to dismiss the
action. Id. On appeal, the Texas Supreme Court held
that Congress did not intend for the Bankruptcy Code to
preempt a state law malicious prosecution claim. Id., at
620.
The Texas Supreme Court in Graber approached the
preemption issue by analyzing each provision in the
Bankruptcy Code to determine whether Congress
intended to occupy the field of sanctions and penalties.
The court reasoned that where Congress “custom-built”
certain provisions of the Bankruptcy Code—unique
provisions without analogues in general federal
litigation—those provisions are more likely to preempt
state law causes of action because Congress “built” or
created a unique remedial provision. Id., at 612–13.
Conversely, the court reasoned, where Congress
imported provisions from existing federal law without
any significant changes, preemption of state law causes
of action is “improbable,” and those provisions should
incorporate common practices under those existing
federal laws. Id., at 613. The court concluded that 11
U.S.C. § 105 and rule 9011 do not preempt state law
claims for malicious prosecution because they are
imported from existing federal law and represent

29a
Congress’ implicit acceptance of state law malicious
12
prosecution claims. Id. Although that is still a minority
view, some courts, in light of Graber, similarly have held
that the Bankruptcy Code does not preempt state law
causes of action providing damages for abuse of the
bankruptcy process. See, e.g., U.S. Express Lines, Ltd.
v. Higgins, 281 F.3d 383, 393 (3d Cir. 2002) (holding that
state law claim for malicious prosecution was not
preempted); R.L. LaRoche, Inc. v. Barnett Bank of
South Florida, N.A., 661 So. 2d 855, 857 (Fla. App. 1995)
(concluding that federal bankruptcy law did not preempt
state law abuse of process and malicious prosecution
claims).
We disagree with the minority approach to the
preemption analysis. Notably, the court in Graber did
not cite any case law as authority for categorizing
provisions of federal law as either “custom-built” or
imported when determining whether those provisions
are more or less likely to preempt state law causes of
action. Rather, the court effectively adopted its own
“custom-built” method to analyze individual provisions
of the Bankruptcy Code. By adopting this analysis, the
court failed to consider the structure and purpose of the
Bankruptcy Code and, consequently, failed to recognize
that Congress legislated so comprehensively as to
12

The Texas Supreme Court decided Graber by a five to four margin.
The dissenters concluded, as we have and as the Appellate Court
did in Lewis, that federal law occupied the field and that permitting
state law actions for malicious prosecution would undermine the
uniformity of bankruptcy law mandated by the United States
constitution. See Graber v. Fuqua, supra, 279 S.W.3d at 620–21
(Wainwright, J., dissenting).

30a
occupy the entire field of regulation.
See, e.g.,
Longnecker v. Deutsche Bank National Trust Co.,
supra, 2013 WL 6700312, at *6 (rejecting Graber
approach and determining that state court did not err in
“ruling, consistently with the majority of state and
federal courts, that it lacked subject matter jurisdiction
over claims alleging abuse of bankruptcy proceedings”);
PNH, Inc. v. Alfa Laval Flow, Inc., 130 Ohio St. 3d 278,
285, 958 N.E.2d 120 (2011) (rejecting Graber approach
and concluding that federal law preempts state law
causes of action for misconduct of litigants in bankruptcy
proceedings), cert. denied, 565 U.S. 1262, 132 S. Ct. 1764,
182 L. Ed. 2d 533 (2012).
Like the substantial majority of federal and state
courts that have concluded that the Bankruptcy Code
preempts state law claims for abuse of process, we
conclude that Congress clearly has “considered the need
to deter misuse of the process and has not merely
overlooked the creation of additional deterrents.” MSR
Exploration, Ltd. v. Meridian Oil, Inc., supra, 74 F.3d
at 915. As previously stated, Congress decides what
penalties are appropriate within the bankruptcy
process, not state courts. Gonzales v. Parks, supra, 830
F.2d at 1036. Accordingly, we interpret Congress’ grant
of exclusive jurisdiction over bankruptcy petitions to the
district courts, and the federal interest in uniform laws
on bankruptcy, as occupying the field and implicitly
rejecting state law claims for abuse of process.

31a
III
Finally, the plaintiff argues that there is little
similarity between the penalties, sanctions, and
damages available under Connecticut law for his
CUTPA and vexatious litigation claims, and the
sanctions for abuse of process available under the
Bankruptcy Code. The plaintiff asks this court to
conclude that, because the remedies are different, there
is no conflict, and, therefore, his claims are not
13
preempted. We agree with the plaintiff that state law
actions are not in conflict with bankruptcy law because a
party can comply with both state and federal law.
However, we conclude that those actions are still
preempted under a conflict preemption analysis because
they are an obstacle to accomplishing Congress’ purpose
within the Bankruptcy Code.
“Conflict preemption exists when compliance with
both state and federal law is impossible, and a subset of
13

Courts addressing the issue of preemption that we are faced with
in the present case often combine the analysis for occupy the field
preemption and conflict preemption, both of which are types of
implied preemption, without significant distinction. See, e.g.,
Eastern Equipment & Services Corp. v. Factory Point National
Bank, supra, 236 F.3d at 120–21; MSR Exploration, Ltd. v.
Meridian Oil, Inc., supra, 74 F.3d at 913–15, Lewis v. Chelsea
G.C.A. Realty Partnership, L.P., supra, 86 Conn. App. at 601–605,
862 A.2d 368. As a practical matter, it often will be the case that,
when Congress has occupied the field, a state law cause of action
likely will obstruct Congress’ purpose, resulting in conflict
preemption. We note that courts often have held that if one kind of
preemption exists, the others need not be addressed. See, e.g.,
Resolution Trust Corp. v. Diamond, 18 F.3d 111, 125 (2d Cir.) (not
addressing conflict preemption after holding that express
preemption applied), vacated on other grounds sub nom. Pattullo

32a
conflict preemption referred to as obstacle preemption
applies when the state law stands as an obstacle to the
accomplishment and execution of the full purposes and
objectives of Congress.... State law is in irreconcilable
conflict with federal law, and hence preempted by
federal law, when compliance with the state statute
would frustrate the purposes of the federal scheme.”
(Internal quotation marks omitted.)
Sarrazin v.
Coastal, Inc., supra, 311 Conn. at 593, 89 A.3d 841,
quoting Sosnowy v. A. Perri Farms, Inc., 764 F. Supp.
2d 457, 464 (E.D.N.Y. 2011). Therefore, we must
determine whether compliance with state and federal
law would be impossible and then consider whether the
plaintiff’s vexatious litigation and CUTPA claims would
be an obstacle to Congress’ objectives.
We agree with the plaintiff that compliance with both
the Bankruptcy Code and Connecticut law would not be
impossible. “The test of whether both federal and state
regulations may operate, or the state regulation must
give way, is whether both regulations can be enforced
without impairing the federal superintendence of the
field, not whether they are aimed at similar or different
objectives.” Florida Lime & Avocado Growers, Inc. v.
Paul, supra, 373 U.S. at 142, 83 S. Ct. 1210.
v. Resolution Trust Corp., 513 U.S. 801, 115 S. Ct. 43, 44, 130 L. Ed.
2d 5 (1994); Depot, Inc. v. Caring for Montanans, Inc., Docket No.
16-74-M-DLC, 2017 WL 3687339, *5 (D. Mont. February 14, 2017)
(not reaching issue of conflict preemption because plaintiffs’ claims
were expressly preempted). Because the plaintiff in the present
case sets forth arguments unique to conflict preemption that
warrant separate analysis, we have not combined our analysis of
these two types of implied preemption.

33a
Connecticut’s vexatious litigation statute strives to
deter parties from bringing claims without probable
cause and with malicious intent. See General Statutes
§ 52-568.
CUTPA prohibits unfair methods of
competition and unfair or deceptive acts or practices in
the conduct of trade or commerce. See General Statutes
§ 42-110b (a). To comply with Connecticut law, a party
need only refrain from bringing claims without probable
cause, and compete fairly and without deception.
Obviously, no provision in the Bankruptcy Code
mandates that a party bring claims without probable
cause or compete unfairly or deceptively. Connecticut
law can be enforced without impairing the federal
superintendence. Therefore, the state statutes do not
conflict with the Bankruptcy Code such that it would be
impossible to comply with both.
However, our obstacle preemption analysis
implicates many of the same factors that drove our
implied (or occupy the field) preemption analysis and
leads us to conclude that the plaintiff’s state law abuse
of process actions are preempted. Congress enacted the
Bankruptcy Code inclusive of penalties and protections
to govern the orderly conduct of debtors’ affairs and
creditors’ rights. Permitting parties to bring abuse of
process actions in state court hinders Congress’
objective of uniformly defining the scope and availability
of remedies for abuse of the bankruptcy process.
We can imagine a myriad of claims that would lend
themselves to vexatious litigation actions, including
debtors’ petitions, creditors’ claims, disputes over
reorganization plans, and disputes over pending
discharges, to name a few. If such claims were not

34a
preempted by federal law, redress for them would
depend on the law of the state in which the plaintiff
brought the action. MSR Exploration, Ltd. v. Meridian
Oil, Inc., supra, 74 F.3d at 914. “Permitting assertion of
a host of state law causes of action to redress wrongs
under the Bankruptcy Code would undermine the
uniformity the Code endeavors to preserve and would
[stand] as an obstacle to the accomplishment and
execution of the full purposes and objectives of
Congress.” (Internal quotation marks omitted.) Pertuso
v. Ford Motor Credit Co., 233 F.3d 417, 426 (6th Cir.
2000). Accordingly, the plaintiff’s state law CUTPA and
vexatious litigation claims are in conflict with the
Bankruptcy Code provisions regarding sanctions for
abuse of process and, thus, are preempted. The trial
court properly dismissed these claims for lack of subject
matter jurisdiction.
The judgment is affirmed.
In this opinion the other justices concurred.

35a
Appendix B
ORDER 434448
DOCKET NO:
UWYC176036631S

SUPERIOR COURT

METCALF, JONATHAN S.
V.
FITZGERALD, MICHAEL
Et Al

JUDICIAL
DISTRICT OF
WATERBURY
AT WATERBURY
1/22/2018

ORDER
ORDER REGARDING:
11/21/2017 103.00 MOTION TO DISMISS PB 10-30
The foregoing, having been heard by the Court, is
hereby:
ORDER: GRANTED
“The exclusivity of federal jurisdiction over
bankruptcy
proceedings,
the
complexity
and
comprehensiveness of Congress’ regulation in the area
of bankruptcy law and the existence of federal sanctions
for the filing of frivolous and malicious pleadings in
bankruptcy must be read as Congress’ implicit rejection
of alternative remedies such as those the plaintiff seeks.”
Lewis v. Chelsea G.C.A. Realty P’ship, L.P., 86 Conn.
App. 596, 605, 862 A.2d 368, 373 (2004).
This court thus lacks subject matter jurisdiction over
the subject claims and this motion to dismiss is therefore
granted. The court also on its own motion dismisses the

36a
remaining counts of this complaint on the same basis as
it grants the motion to dismiss now before it as the court
also lacks subject matter jurisdiction over these
remaining claims.
Judicial Notice (JDNO) was sent regarding this
order.
434448
Judge: ANDREW W. RORABACK

37a
Appendix C
RETURN DATE:
NOVEMBER 21, 2017

: SUPERIOR COURT
: J.D. OF WATERBURY

METCALF, JONATHAN S.
: AT WATERBURY
VS.
: OCTOBER 10, 2017
FITZGERALD, MICHAEL,
ET AL
COMPLAINT
COUNT ONE: (AGAINST FITZGERALD –
VEXATIOUS LITIGATION – COMMON LAW
The Parties
1.

At all times relevant hereto, the plaintiff,
Jonathan S. Metcalf (hereinafter “Metcalf”), was
and is an individual residing in Washington,
Connecticut.

2.

At all times relevant hereto, the defendant,
Michael Fitzgerald, (hereinafter “Fitzgerald”)
was and is an individual residing in Hamden,
Connecticut.

3.

At all times relevant hereto, the defendant, Ion
Bank, f/k/a Naugatuck Savings Bank (hereinafter
“Ion Bank” regardless of its name at the relevant
time), was and is a bank organized and existing
under the laws of the State of Connecticut with

38a
an office and principal place of business located in
Naugatuck, Connecticut.
4.

At all times relevant hereto, the defendant, Ion
Bank, employed Fitzgerald as an assistant vice
president in charge of special assets.

5.

At all times relevant hereto, the defendant,
Fitzgerald, was the servant, agent, or employee
of Ion Bank, acting within the scope of his
authority or employment.

6.

At all times relevant hereto, the defendant, Myles
H. Alderman, Jr., (hereinafter “Alderman”) was
and is an attorney licensed to practice law in
Connecticut who resides in West Hartford,
Connecticut.

7.

At all times relevant hereto, the defendant,
Alderman & Alderman, LLC, was and is a limited
liability company offering legal services to the
public and was organized and existing under the
laws of the State of Connecticut with an office and
principal place of business located in Hartford,
Connecticut.

8.

At all times relevant hereto, Alderman &
Alderman, LLC employed Alderman as an
attorney.

9.

At all times relevant hereto, the defendant,
Alderman, was the servant, agent, or employee of
Alderman & Alderman, LLC, acting within the
scope of his authority or employment.

10.

At all times relevant hereto except for twentytwo (22) months from December 2013 to October

39a
2015, Alderman & Alderman, LLC and Alderman
represented Ion Bank in regards to certain legal
proceedings brought by Ion Bank against
Metcalf.
11.

For the twenty-two (22) months from December
2013 to October 2015, Alderman continued to
represent Ion Bank in regards to Metcalf but was
employed by the firm of Halloran & Sage, LLP.
Metcalf Paving Bankruptcy

12.

On October 23, 2009, Metcalf Paving Co., Inc.
(“Metcalf Paving”) filed a bankruptcy petition
Under Title 11, chapter 11 of the bankruptcy
code, 11 U.S.C. §101, et seq., (hereinafter the
“Metcalf Paving Bankruptcy”).

13.

On or about February 25, 2011, the Metcalf
Paving Bankruptcy was converted to a case
under chapter 7 of the Bankruptcy code and
Ronald Chorches was appointed trustee thereof.
Metcalf Bankruptcy

14.

On August 23, 2012, the plaintiff filed a
bankruptcy petition Under Title 11, chapter 7 of
the bankruptcy code, 11 U.S.C. §101, et seq., Case
#12-31919
(hereinafter
the
“Bankruptcy
Petition”).

15.

At the time of filing the Bankruptcy Petition, the
plaintiff was indebted to the defendant, Ion Bank.
The Underlying Action

16.

On or about January 31, 2013, the defendants
caused to be initiated an Adversary Proceeding

40a
against Metcalf in United States Bankruptcy
Court, captioned Naugatuck Savings Bank v.
Jonathan Shea Metcalf; Adversary Case No.
13-03006 (hereinafter the “Underlying Action”).
17.

18.

The Underlying Action was originally brought in
three (3) counts as follows:
a.

Count One – Objection to Discharge of
Debt Pursuant to 11 U.S.C. §523(a)(2)(A);

b.

Count Two – Objection to Discharge of
Debt Pursuant to 11 U.S.C. §523(a)(4);

c.

Count Three – Objection to Discharge
Pursuant to 11 U.S.C. §727(a)(7).

From January 31, 2013 to February 17, 2014, the
defendants continued to maintain and prosecute
the Underlying Action against Metcalf.
First Amended Complaint

19.

On February 17, 2014, the defendants filed their
First Amended Complaint whereby they
withdrew Count One and Count Two and
amended Count Three of the Underlying Action.

20.

The First Amended Complaint in the Underlying
Action set forth in Count Three that the plaintiff:
a.

Transferred, removed, destroyed and
concealed property of the estate of Metcalf
Paving within one (1) year before it filed
for bankruptcy protection with intent to
hinder, delay or defraud a creditor and the
Chapter 7 Trustee;

41a
b.

During the Metcalf Paving Bankruptcy,
the plaintiff transferred, removed and/or
concealed (or permitted to be transferred,
removed and/or concealed) property of the
Metcalf Paving Bankruptcy estate with
the intent to hinder, delay and/or defraud
creditors of the estate and/or the Chapter
7 Trustee;

c.

During the Metcalf Paving Bankruptcy,
the
plaintiff
removed,
destroyed,
mutilated and/or concealed (or permitted
others to removed, destroyed, mutilated
and/or concealed) property of the Metcalf
Paving, including shredding books,
documents, records and papers, from
which the financial condition or business
transactions of Metcalf Paving might have
been ascertained;

d.

During the Metcalf Paving Bankruptcy,
the
plaintiff
removed,
destroyed,
mutilated and/or concealed the computer
hard drives that contained the books,
documents and records from which the
financial condition or business transactions
of Metcalf Paving might have been
ascertained, without justification under
the circumstances;

e.

During the Metcalf Paving Bankruptcy,
the plaintiff failed to keep or preserve
recorded information, including books,
documents, records and papers, from
which the financial condition or business

42a
transactions of Metcalf Paving might have
been ascertained;
f.

During the bankruptcy case of Metcalf
Paving, Jonathan Metcalf knowingly and
fraudulently withheld from the Chapter 7
Trustee recorded information, including
books, documents, records, and papers,
relating to the property or financial affairs
of Metcalf Paving;

g.

In connection with the bankruptcy case of
Metcalf Paving, Jonathan Metcalf refused
to obey the order converting that case;

Second Amended Complaint
21.

On October 20, 2014, the defendants filed their
Second Amended Complaint whereby they again
amended Count Three of the Underlying Action.

22.

The Second Amended Complaint in the
Underlying Action set forth, inter alia, in Count
Three that the plaintiff:
a.

Failed to deliver thirteen (13) vehicles and
a milling machine to the attorney for the
trustee;

b.

Failed to deliver a check in the amount of
$700.00 which was alleged to be property
of the Metcalf Paving Bankruptcy estate;

c.

Failed to disclose and hid the existence of
a website www.metcalfpaving.com and
used it for a new business the plaintiff had
started;

43a
a.

Failed to provide financial documents
including, but not limited to, tax returns.
profit and loss statements, bank
statements and documents relating to
accounts payable and receivable;

b.

Claimed that the attorney for the trustee,
accompanied by the defendant, Fitzgerald,
conducted a complete inspection of the
offices of Metcalf Paving but found no
financial documents other than shredded
documents;

c.

Caused computer hard drives to be
removed that were claimed to be property
of Metcalf Paving;

d.

Failed to deliver a laptop (“Laptop”) that
they alleged was property of Metcalf
Paving;

e.

Used the Laptop for personal use and for a
new company the plaintiff had started;

f.

Took possession of an expensive piece of
machinery belonging to Metcalf Paving, a
Roadtech rx-900, and used it for the new
business the plaintiff had started;

g.

Obtained title to three vehicles for less
than fair value taking for himself the
excess value;

h.

Unlawfully transferred property from
Metcalf Paving to the plaintiff's new
company without permission;

44a
i.

Transferred, removed, destroyed and/or
concealed property of the Metcalf Paving
Estate;

j.

In connection with the Metcalf Paving
Bankruptcy, the plaintiff failed to explain
satisfactorily the loss of assets that
exacerbated the deficiency of assets
available to meet the liabilities of Metcalf
paving;

k.

Transferred, removed and/or concealed (or
permitted to be transferred, removed,
and/or concealed) property of the Metcalf
Paving Bankruptcy with the intent to
hinder, delay and/or defraud creditors of
the estate and/or the Chapter 7 Trustee;

l.

Removed, destroyed, mutilated and/or
concealed (or permitted others to remove,
destroy, mutilate and/or concealed)
property of the estate of Metcalf Paving
Bankruptcy, including shredding books,
documents, records and papers, including
specifically all or part of the books and
records of Metcalf Paving for the years
2008 through 2011, from which the
financial condition or business transactions
of Metcalf Paving might have been
ascertained;

m.

Removed, destroyed, mutilated and/or
concealed the computer hard drives and
the Laptop that contained the books,
documents
and
records,
including

45a
specifically all or part of the books and
records of Metcalf Paving for the years
2008 through 2011, from which the
financial condition or business transactions
of Metcalf Paving might have been
ascertained, without justification under
the circumstances;
n.

Failed to keep or preserve recorded
information, including books, documents,
records and papers, including specifically
documents with information regarding
accounts payable, accounts receivable, and
bank statements for Metcalf Paving, from
which the financial condition or business
transactions of Metcalf Paving might have
been ascertained;

o.

Knowingly and fraudulently withheld from
the Chapter 7 Trustee recorded
information, including books, documents,
records, and papers, including specifically
the Laptop with all or part of the books and
records of Metcalf Paving for the years
2008 through 2011, relating to the property
or financial affairs of Metcalf Paving;

p.

Failed to explain satisfactorily, the loss of
assets of Metcalf Paving that exacerbated
the deficiency of assets available to met
the liabilities of Metcalf Paving, during the
time period beginning on or around
October 23, 2009 and continuing through
the present day;

46a
q.

23.

Refused to obey the order converting that
case, during the time period beginning on
or around February 25, 2011 and
continuing through the present day.

Each material allegation in the complaint(s) was
unsupported by knowledge of facts, actual or
apparent, strong enough to justify the defendants
in the belief that they had lawful grounds for
prosecuting Metcalf in the complaint(s).
Motion For Summary Judgment

24.

On or about February 5, 2016, Metcalf filed a
motion for summary judgment in the Underlying
Action with supporting documentation and legal
memorandum claiming that no issue of material
fact existed as to any allegation made in the
second amended complaint and that judgment
should enter as a matter of law in favor of him.

25.

In particular, Metcalf submitted factual proof to
support the following:
a.

Each vehicle and piece of equipment held
under the security agreement in favor of
Ion has a GPS installed and its
whereabouts was monitored by the
defendant, Fitzgerald, at all times;

b.

Each vehicle and piece of equipment had
been repossessed by lawful means by the
defendant, Ion Bank, or by the purchase
money lender and was not property of the
Metcalf Paving Bankruptcy estate at the
time the Underlying Action was

47a
commenced and/or had been auctioned
though the efforts of the trustee in the
Metcalf Paving Bankruptcy;
c.

The website had been disclosed to the
trustee at the §341 meeting of creditors
near the commencement of the Metcalf
Paving Bankruptcy;

d.

Substantial documents were maintained
by Metcalf Paving in a room that was
overlooked or ignored by Fitzgerald
and/or the attorney for the trustee of the
Metcalf Paving Bankruptcy. In fact, the
plaintiff provided a thumb drive to the
trustee containing all financial information
from Quickbooks. In addition, the an
accountant was retained by the trustee
and over one hundred (100) boxes of
financial information was obtained by the
accountant with the knowledge of the
trustee of the Metcalf Paving Bankruptcy
and each defendant herein. In fact, the
defendants caused to be filed an objection
to the retention of the accountant
acknowledging that dozens of boxes of
documents had been provided;

e.

Metcalf Paving caused monthly operating
reports to be filed during the pendency of
the bankruptcy proceedings under chapter
11 that disclosed fully all assets, liabilities,
income and expense incurred.

48a
26.

The statute of limitations contained in 11 U.S.C.
§727(a)(7) barred the claims asserted by the
defendants.
Defendants’ Response To Summary Judgment

27.

Subsequent to the filing of the motion for
summary judgment by the plaintiffs, the
defendants decided that they no longer saw any
benefit in prosecuting the Underlying Action.
Dismissal Of The Underlying Action

28.

On February 25, 2016, the defendants filed a
motion to dismiss the Underlying Action with
prejudice which was granted by the court
effective on May 2, 2016.

29.

The withdrawal of Counts One and Two and the
Court’s entry of the dismissal of the Underlying
Action in favor of Metcalf terminated the
litigation in favor of Metcalf, and all time periods
for appeal have since expired.

30.

At the time the complaint was filed in the
Underlying Action, and at all times between the
date of filing and the date of the withdrawal and
the entry of the dismissal, the defendants knew or
should have known, that all of the claims made
against Metcalf were without factual merit and/or
were time-barred by the applicable statutes of
limitations.

31.

The defendants instituted the Underlying Action
against Metcalf without probable cause and with
malice.

49a
32.

After the initiation of suit, the defendant,
Fitzgerald, continued to maintain and prosecute
the Underlying Action against Metcalf without
probable cause and with malice.

33.

As a direct and
proximate result of the
defendants
instituting,
maintaining
and
prosecuting the Underlying Action, Metcalf has
suffered damages, including but not limited to:
a.

Incurring attorney’s fees necessary for the
defense of the Underlying Action;

b.

Losses flowing from the inability to
manage his business affairs due to the
cloud upon his discharge with increases in
the cost of insurance to conduct personal
and company business with increases in
the cost of insurance to conduct personal
and company business;

c.

Emotional distress;

d.

Expenditure of time, effort and resources
by Metcalf, detracting from efforts which
could have been devoted to business
pursuits to reduce or eliminate debt to the
IRS resulting in the accumulation of
significant interest and penalties to reduce
or eliminate debt to the IRS resulting in
the accumulation of significant interest
and penalties; and

e. Injuries to Metcalf’s business and professional
reputation.

50a
COUNT TWO: (AGAINST FITZGERALD STATUTORY CLAIM PURSUANT TO C.G.S.
§ 52-568(1))
1 – 30. Paragraphs one through thirty of Count One are
hereby made paragraphs one through thirty of Count
Two as if fully set forth herein.
31.

The defendant, Fitzgerald, initiated the
Underlying Action against Metcalf without
probable cause.

32.

After the initiation of suit, the defendant,
Fitzgerald, prosecuted and continued to maintain
the Underlying Action against Metcalf without
probable cause.

33.

As a direct and proximate result of the
defendants
instituting,
maintaining
and
prosecuting the Underlying Action, Metcalf has
suffered damages, including but not limited to:
a.

Incurring attorney’s fees necessary for the
defense of the Underlying Action;

b.

Losses flowing from the inability to
manage his business affairs due to the
cloud upon his discharge with increases in
the cost of insurance to conduct personal
and company business;

c.

Emotional distress;

d.

Expenditure of time, effort and resources
by Metcalf, detracting from efforts which
could have been devoted to business
pursuits to reduce or eliminate debt to the

51a
IRS resulting in the accumulation of
significant interest and penalties; and
e.
34.

Injuries to Metcalf’s
professional reputation.

business

and

Pursuant to Conn. Gen. Stat. § 52-568(1), Metcalf
hereby claims double damages.

COUNT THREE: (AGAINST FITZGERALD STATUTORY CLAIM PURSUANT TO C.G.S
§ 52-568(2))
1 - 30. Paragraphs one through thirty of Count One are
hereby made paragraphs one through thirty of Count
Three as if fully set forth herein.
31.

The defendant, Fitzgerald, initiated the
Underlying Action against Metcalf without
probable cause and with malicious intent.

32.

After the initiation of suit, the defendant,
Fitzgerald, prosecuted and continued to maintain
the Underlying Action against Metcalf without
probable cause and with malicious intent.

33.

As a direct and proximate result of the
defendants
instituting,
maintaining
and
prosecuting the Underlying Action, Metcalf has
suffered damages, including but not limited to:
a.

Incurring attorney’s fees necessary for the
defense of the Underlying Action;

b.

Losses flowing from the inability to
manage his business affairs due to the
cloud upon his discharge with increases in

52a
the cost of insurance to conduct personal
and company business;

34.

c.

Emotional distress;

d.

Expenditure of time, effort and resources
by Metcalf, detracting from efforts which
could have been devoted to business
pursuits to reduce or eliminate debt to the
IRS resulting in the accumulation of
significant interest and penalties; and

e.

Injuries to Metcalf's
professional reputation.

business

and

Pursuant to Conn. Gen. Stat. § 52-568(2), Metcalf
hereby claims treble damages.

COUNT FOUR: (AGAINST ION BANK –
VEXATIOUS LITIGATION – COMMON LAW)
1 - 30. Paragraphs one through thirty of Count One are
hereby made paragraphs one through thirty of Count
Four.
31.

After the initiation of suit, the defendant, Ion
Bank, continued to maintain and prosecute the
Underlying Action against Metcalf without
probable cause and with malice.

32.

As a direct and proximate result of the
defendants
instituting,
maintaining
and
prosecuting the Underlying Action, Metcalf has
suffered damages, including but not limited to:
a.

Incurring attorney’s fees necessary for the
defense of the Underlying Action;

53a
b.

Losses flowing from the inability to
manage his business affairs due to the
cloud upon his discharge with increases in
the cost of insurance to conduct personal
and company business;

c.

Emotional distress;

d.

Expenditure of time, effort and resources
by Metcalf, detracting from efforts which
could have been devoted to business
pursuits to reduce or eliminate debt to the
IRS resulting in the accumulation of
significant interest and penalties; and

e.

Injuries to Metcalf’s
professional reputation.

business

and

COUNT FIVE: (AGAINST ION BANK –
STATUTORY CLAIM PURSUANT TO C.G.S.
§ 52-568(1))
1 - 30. Paragraphs one through thirty of Count One are
hereby made paragraphs one through thirty of Count
Five as if fully set forth herein.
31.

The defendant, Ion Bank, initiated the
Underlying Action against Metcalf without
probable cause.

32.

After the initiation of suit, the defendant, Ion
Bank, prosecuted and continued to maintain the
Underlying Action against Metcalf without
probable cause.

33.

As a direct and proximate result of the
defendants
instituting,
maintaining
and

54a
prosecuting the Underlying Action, Metcalf has
suffered damages, including but not limited to:

34.

a.

Incurring attorney’s fees necessary for the
defense of the Underlying Action;

b.

Losses flowing from the inability to
manage his business affairs due to the
cloud upon his discharge with increases in
the cost of insurance to conduct personal
and company business;

c.

Emotional distress;

d.

Expenditure of time, effort and resources
by Metcalf, detracting from efforts which
could have been devoted to business
pursuits to reduce or eliminate debt to the
IRS resulting in the accumulation of
significant interest and penalties; and

e.

Injuries to Metcalf’s
professional reputation.

business

and

Pursuant to Conn. Gen. Stat. § 52-568(1), Metcalf
hereby claims double damages.

COUNT SIX: (AGAINST ION BANK STATUTORY CLAIM PURSUANT TO C.G.S.
§ 52-568(2))
1 - 30. Paragraphs one through thirty of Count One are
hereby made paragraphs one through thirty of Count
Six as if fully set forth herein.
31.

The defendant, Ion Bank, initiated the
Underlying Action against Metcalf without
probable cause and with malicious intent.

55a
32.

After the initiation of suit, the defendant, Ion
Bank, prosecuted and continued to maintain the
Underlying Action against Metcalf without
probable cause and with malicious intent.

33.

As a direct and proximate result of the
defendants
instituting,
maintaining
and
prosecuting the Underlying Action, Metcalf has
suffered damages, including but not limited to:

34.

a.

Incurring attorney’s fees necessary for the
defense of the Underlying Action;

b.

Losses flowing from the inability to
manage his business affairs due to the
cloud upon his discharge with increases in
the cost of insurance to conduct personal
and company business;

c.

Emotional distress;

d.

Expenditure of time, effort and resources
by Metcalf, detracting from efforts which
could have been devoted to business
pursuits to reduce or eliminate debt to the
IRS resulting in the accumulation of
significant interest and penalties; and

e.

Injuries to Metcalf’s
professional reputation.

business

and

Pursuant to Conn. Gen. Stat. § 52-568(2), Metcalf
hereby claims treble damages.

56a
COUNT SEVEN: (AGAINST FITZGERALD AND
ION BANK - CUTPA)
1 - 30. Paragraphs one through thirty of Count One are
hereby made paragraphs one through thirty of Count
Seven as if fully set forth herein.
31.

The foregoing conduct was unfair or deceptive
acts or practices in violation of Conn. Gen Stat.
42a-110a et seq. (“CUTPA”):

32.

Fitzgerald and Ion Bank repeatedly engaged in
the aforesaid unfair and deceptive acts or
practices in the course of the Underlying Action.

33.

Fitzgerald and Ion Bank’s conduct, as aforesaid,
was committed with such frequency as to indicate
a general business practice in that the conduct
was carried out repeatedly in various and
different manners over a period of time.

34.

As a direct and proximate result of the aforesaid
actions and conduct, Metcalf has incurred an
ascertainable loss in that it has expended sums
relating to the costs of litigation, attorneys’ fees
and other related expenses.

COUNT EIGHT: (AGAINST ALDERMAN &
ALDERMAN, LLC VEXATIOUS LITIGATION COMMON LAW)
1 - 30. Paragraphs one through thirty of Count One are
hereby made paragraphs one through thirty of Count
Eight.
31.

After the initiation of suit, the defendant,
Alderman & Alderman, LLC, continued to
maintain and prosecute the Underlying Action

57a
against Metcalf without probable cause and with
malice.
32.

As a direct and proximate result of the
defendants
instituting,
maintaining
and
prosecuting the Underlying Action, Metcalf has
suffered damages, including but not limited to:
a.

Incurring attorney’s fees necessary for the
defense of the Underlying Action;

b.

Losses flowing from the inability to
manage his business affairs due to the
cloud upon his discharge with increases in
the cost of insurance to conduct personal
and company business;

c.

Emotional distress;

d.

Expenditure of time, effort and resources
by Metcalf, detracting from efforts which
could have been devoted to business
pursuits to reduce or eliminate debt to the
IRS resulting in the accumulation of
significant interest and penalties; and

e.

Injuries to Metcalf’s
professional reputation.

business

and

COUNT NINE: (AGAINST ALDERMAN &
ALDERMAN, LLC - STATUTORY CLAIM
PURSUANT TO C.G.S. § 52-568(1))
1 - 30. Paragraphs one through thirty of Count One are
hereby made paragraphs one through thirty of Count
Nine as if fully set forth herein.

58a
31.

The defendant, Alderman & Alderman, LLC,
initiated the Underlying Action against Metcalf
without probable cause.

32.

After the initiation of suit, the defendant,
Alderman & Alderman, LLC, prosecuted and
continued to maintain the Underlying Action
against Metcalf without probable cause.

33.

As a direct and proximate result of the
defendants
instituting,
maintaining
and
prosecuting the Underlying Action, Metcalf has
suffered damages, including but not limited to:

34.

a.

Incurring attorney’s fees necessary for the
defense of the Underlying Action;

b.

Losses flowing from the inability to
manage his business affairs due to the
cloud upon his discharge with increases in
the cost of insurance to conduct personal
and company business;

c.

Emotional distress;

d.

Expenditure of time, effort and resources
by Metcalf, detracting from efforts which
could have been devoted to business
pursuits to reduce or eliminate debt to the
IRS resulting in the accumulation of
significant interest and penalties; and

e.

Injuries to Metcalf’s
professional reputation.

business

and

Pursuant to Conn. Gen. Stat. § 52-568(1), Metcalf
hereby claims double damages.

59a
COUNT TEN: (AGAINST ALDERMAN &
ALDERMAN , LLC - STATUTORY CLAIM
PURSUANT TO C.G.S. § 52-568(2))
1 - 30. Paragraphs one through thirty of Count One are
hereby made paragraphs one through thirty of Count
Ten as if fully set forth herein.
31.

The defendant, Alderman & Alderman, LLC,
initiated the Underlying Action against Metcalf
without probable cause and with malicious intent.

32.

After the initiation of suit, the defendant,
Alderman & Alderman, LLC, prosecuted and
continued to maintain the Underlying Action
against Metcalf without probable cause and with
malicious intent.

33.

As a direct and proximate result of the
defendants
instituting,
maintaining
and
prosecuting the Underlying Action, Metcalf has
suffered damages, including but not limited to:
a.

Incurring attorney’s fees necessary for the
defense of the Underlying Action;

b.

Losses flowing from the inability to
manage his business affairs due to the
cloud upon his discharge with increases in
the cost of insurance to conduct personal
and company business;

c.

Emotional distress;

d.

Expenditure of time, effort and resources
by Metcalf, detracting from efforts which
could have been devoted to business
pursuits to reduce or eliminate debt to the

60a
IRS resulting in the accumulation of
significant interest and penalties; and
e.
34.

Injuries to Metcalf’s
professional reputation.

business

and

Pursuant to Conn. Gen. Stat. § 52-568(2), Metcalf
hereby claims treble damages.

COUNT ELEVEN: (AGAINST ALDERMAN VEXATIOUS LITIGATION - COMMON LAW)
1 - 30. Paragraphs one through thirty of Count One are
hereby made paragraphs one through thirty of Count
Eleven.
31.

After the initiation of suit, the defendant,
Alderman, continued to maintain and prosecute
the Underlying Action against Metcalf without
probable cause and with malice.

32.

As a direct and proximate result of the
defendants
instituting,
maintaining
and
prosecuting the Underlying Action, Metcalf has
suffered damages, including but not limited to:
a.

Incurring attorney’s fees necessary for the
defense of the Underlying Action;

b.

Losses flowing from the inability to
manage his business affairs due to the
cloud upon his discharge with increases in
the cost of insurance to conduct personal
and company business;

c.

Emotional distress;

d.

Expenditure of time, effort and resources
by Metcalf, detracting from efforts which

61a
could have been devoted to business
pursuits to reduce or eliminate debt to the
IRS resulting in the accumulation of
significant interest and penalties; and
e.

Injuries to Metcalf’s
professional reputation.

business

and

COUNT TWELVE: (AGAINST ALDERMAN STATUTORY CLAIM PURSUANT TO C.G.S.
§ 52-568(1))
1 - 30. Paragraphs one through thirty of Count One are
hereby made paragraphs one through thirty of Count
Twelve as if fully set forth herein.
31.

The defendant, Alderman, initiated the
Underlying Action against Metcalf without
probable cause.

32.

After the initiation of suit, the defendant,
Alderman, prosecuted and continued to maintain
the Underlying Action against Metcalf without
probable cause.

33.

As a direct and proximate result of the
defendants
instituting,
maintaining
and
prosecuting the Underlying Action, Metcalf has
suffered damages, including but not limited to:
a.

Incurring attorney’s fees necessary for
the defense of the Underlying Action;

b.

Losses flowing from the inability to
manage his business affairs due to the
cloud upon his discharge with increases in
the cost of insurance to conduct personal
and company business;

62a

34.

c.

Emotional distress;

d.

Expenditure of time, effort and resources
by Metcalf, detracting from efforts which
could have been devoted to business
pursuits to reduce or eliminate debt to the
IRS resulting in the accumulation of
significant interest and penalties; and

e.

Injuries to Metcalf’s
professional reputation.

business

and

Pursuant to Conn. Gen. Stat. § 52-568(1), Metcalf
hereby claims double damages.

COUNT THIRTEEN: (AGAINST ALDERMAN STATUTORY CLAIM PURSUANT TO C.G.S.
§ 52-568(2))
1 - 30. Paragraphs one through thirty of Count One are
hereby made paragraphs one through thirty of Count
Thirteen as if fully set forth herein.
31.

The defendant, Alderman, initiated the
Underlying Action against Metcalf without
probable cause and with malicious intent.

32.

After the initiation of suit, the defendant,
Alderman & Alderman, LLC, prosecuted and
continued to maintain the Underlying Action
against Metcalf without probable cause and with
malicious intent.

33.

As a direct and proximate result of the
defendants
instituting,
maintaining
and
prosecuting the Underlying Action, Metcalf has
suffered damages, including but not limited to:

63a

34.

a.

Incurring attorney’s fees necessary for the
defense of the Underlying Action;

b.

Losses flowing from the inability to
manage his business affairs due to the
cloud upon his discharge with increases in
the cost of insurance to conduct personal
and company business;

c.

Emotional distress;

d.

Expenditure of time, effort and resources
by Metcalf, detracting from efforts which
could have been devoted to business
pursuits to reduce or eliminate debt to the
IRS resulting in the accumulation of
significant interest and penalties; and

e.

Injuries to Metcalf’s
professional reputation.

business

and

Pursuant to Conn. Gen. Stat. § 52-568(2), Metcalf
hereby claims treble damages.

64a
RETURN DATE:
NOVEMBER 21, 2017

: SUPERIOR COURT
: J.D. OF WATERBURY

METCALF, JONATHAN S.
: AT WATERBURY
VS.
: OCTOBER 10, 2017
FITZGERALD, MICHAEL,
ET AL
PRAYERS FOR RELIEF
WHEREFORE, the plaintiff prays for judgment
against the defendants and claims as follows:
1.

Fair, just and reasonable damages;

2.

Double damages pursuant to Conn. Gen. Stat.
§ 52-568(1);

3.

Treble damages pursuant to Conn. Gen. Stat.
§ 52-568(2);

4.

Punitive damages pursuant to the common law
and/or or General Statutes §42-110g;

5.

Attorney’s fees pursuant to the common law
and/or or General Statutes §42-110g;

6.

Costs associated with the suit; and

7.

Such other relief as the Court deems just and
proper.

The amount, legal interest or property in demand is
more than Fifteen Thousand ($15,000.00) Dollars,
exclusive of interest and costs.

65a
THE PLAINTIFF
METCALF, JONATHAN S.

By:
Bruce L. Elstein, Esq.
Goldman, Gruder & Woods, LLC
105 Technology Drive
Trumbull, CT 06611
Juris No. 035172
Email: belstein@goldgru.com

